9
&

A
Filed: November 19, 2020
IN THE SUPREME COURT OF THE STATE OF OREGON
In Re:
Complaint as to the Conduct of
CHRISTOPHER K. SKAGEN, OSB No. 911020,
Respondent.
(OSB 18149) (SC S066706)
En Banc
On review of the decision of a trial panel of the Disciplinary Board.
Argued and submitted on September 16, 2020.
Christopher K. Skagen, Wellington, New Zealand, argued the cause and filed the
brief on behalf of respondent.
Susan R. Coumoyer, Assistant Disciplinary Counsel, Tigard, argued the cause and
filed the briefs on behalf of the Oregon State Bar.
PER CURIAM
Respondent is disbarred.
DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party: Oregon State Bar
[ ]
[X]
[ ]

No costs allowed.
Costs allowed, payable by: Respondent.
Costs allowed, to abide the outcome on remand, payable by:

>)
•V

1

PER CURIAM

2

This is a reciprocal discipline review proceeding conducted under Oregon

3

State Bar Rule of Procedure (BR) 3.5. Respondent, Christopher K. Skagen, was licensed

4

to practice law in New Zealand and in Oregon during the years relevant to this

5

proceeding. He was struck from New Zealand's Roll of Barristers and Solicitors by the

6

High Court of New Zealand Wellington Registry (High Court) in August 2016 based on

7

misconduct respecting two clients and his significant disciplinary history. That action

8

was the equivalent of disbarment in Oregon. The Oregon State Bar (the Bar) then

9

petitioned the Bar's Disciplinary Board for reciprocal disbarment, alleging that

10

respondent's misconduct in New Zealand constituted multiple violations of the Oregon

11

Rules of Professional Conduct (RPC). A trial panel of the Disciplinary Board was

12

convened, and the matter went to a hearing in January 2019. The trial panel issued an

13

opinion, concluding that respondent should be reciprocally disbarred in Oregon as a

14

result of his misconduct in New Zealand. Respondent now appeals that decision, which

15

we review de novo. ORS 9.536(2); BR 10.6. For the reasons set out below, we agree

16

with the trial panel's decision that respondent should now be disbarred in Oregon.
I. FACTS

17
18
19

A.

Oregon Bar Admission and Prior Oregon Discipline
On de novo review, the court finds the following facts. Respondent went to

20

law school in New Zealand but moved to Oregon shortly after graduating. He was

21

admitted to practice law in Oregon in 1991. In the years following, respondent was

22

subject to disciplinary proceedings twice in Oregon. In 2006, he was suspended from the
1

1

1

practice of law for one year for failing to maintain unearned fees in trust, failing to

2

account for client funds in his possession, failing to maintain an interest-bearing trust

3

account, engaging in conduct prejudicial to the administration ofjustice, and failing to

4

cooperate with the Bar's investigation into his conduct.1 In re Skagen, 342 Or 183, 149

5

P3d 1171 (2006). In 2008, a trial panel in Oregon found that respondent had committed

6

22 client trust fund violations in 20 different client matters over a one-year period; the

7

violations were based on his failures to deposit and maintain in trust unearned fees paid

8

in advance. The trial panel suspended respondent from the practice of law for 18 months

9

for that misconduct.2 In re Skagen, 22 DB Rptr 292 (2008).

10

B.

Reciprocal Discipline in New Zealand
Respondent moved to New Zealand during the pendency of the second

11
12

Oregon disciplinary proceeding. In 2008, respondent was subject to reciprocal censure in

13

New Zealand based on the 2006 Oregon discipline matter, and the New Zealand Law

14

Society (equivalent to the Bar in the United States) ordered him to pay approximately

15

NZ$8,000 in costs. In 2010, respondent applied to renew his membership in the Law

16

Society. Because he had not paid the cost award, he was required to enter into an

17

agreement to make payments on that obligation in the amount of NZ$ 150 per month as a

18

condition of his license renewal. He then began practicing law in New Zealand. He

i

The misconduct leading to the 2006 discipline took place from 2000 to

2002.
2

The misconduct leading to the 2008 discipline took place in 2005, before
this court's decision in the earlier matter, which factored into the trial panel's sanction
determination.
2

1

made only one of the required monthly payments, but he continued to practice law.

2

C.

Licensing and Client Representation in New Zealand
Respondent practiced as a barrister in New Zealand from 2010 to 2011. In

3

4

February 2011, respondent was retained by client E to represent him in a divorce

5

proceeding. Respondent met with E and advised E that he would charge a lump sum for

6

the work and that E would need to see a solicitor — known as an instructing solicitor —

7

before signing the retainer contract.3 Following that meeting, respondent sent E an

8

invoice and his terms of engagement. The invoice set out the scope of the work to be

9

performed and required an initial payment in the amount of NZ$4,100, which was to be

10

half the total fee ultimately due. E paid that amount, and respondent deposited it in his

11

private account. The terms of engagement specified that the instructing solicitor would

12

be Kevin Smith. When respondent and E met with Smith, however, they learned that

13

Smith had already discussed the matter with E's wife and, therefore, could not act as E's

14

instructing solicitor. Respondent and E dispute what happened next. E averred that

15

respondent did not answer his emails after that meeting, while respondent claimed that he

16

explained to E that he would have to find a new instructing solicitor before respondent

17

could perform any legal services for him and then did not hear from E again. In any case,

18

E hired another firm to represent him in the matter and, in March 2011, E's new lawyer

19

sent respondent a letter advising respondent that E wished to terminate the representation.

3

In New Zealand, a barrister may not represent a client without an
instruction — or referral — from a solicitor.

3

■>

1

That letter also demanded that respondent release E's file, provide an itemized bill for

2

costs and work performed, and refund the unearned part of the fee that E had paid him.

3

Respondent initially promised to repay the fee in full but ultimately informed E that he

4

could not do so because of his precarious financial position. He did not refund the

5

unearned fee.

6

In April 2011, the New Zealand Law Society Lawyers Complaint Service

7

sent respondent a letter reminding him that he had not fulfilled his obligation to make

8

monthly payments on the 2008 costs award as a condition of his license renewal. The

9

letter noted that licenses must be renewed by July 1, and it warned respondent that, under

10

New Zealand's disciplinary rules, the Law Society may take into account a lawyer's

11

failure to pay when determining whether a lawyer is a "fit and proper person" to hold a

12

license. The letter demanded payment of the entire amount due by May 5, 2011.

13

Respondent did not respond.

14

In a second letter, dated June 23, 2011, the New Zealand Law Society

15

Fitness for Practice Committee informed respondent that it provisionally had concluded

16

that his failure to respond or to pay constituted "reasonable grounds for declining to

17

renew" his license; it invited him to submit a response.

18

On June 29, 2011, respondent submitted a response claiming not to have

19

received the first letter and asserting that he had failed to pay the amount he owed

20

because he had decided "to place business growth above [his] responsibility to pay [the

21

amount owed] and did not consult the Law Society about that decision." He further

22

explained that he did not believe that nonpayment rendered him unfit as a practitioner and
4
tf'" ■

1

that a finding of unfitness would devastate his prospects for continuing his life as a

2

lawyer. He offered to begin paying NZ$300 per month beginning in July 2011.
The Fitness Committee responded that it would need to be provided with

3
4

further financial information, such as bank statements, to satisfy itself that respondent

5

would be able to pay NZ$300 monthly. Respondent refused to provide that information.
Meanwhile, in May 2011, respondent was hired by client W to represent

6
7

him in an ongoing divorce proceeding. Respondent sent W the terms of engagement and

8

an invoice for NZ$6,900, and W paid him that day. Solicitor Smith instructed respondent

9

(that is, provided the referral). Respondent participated in a telephone conference with

10

the court on Ws case on June 9, 2011. The court ordered W to provide and serve an

11

affidavit in the case. Respondent sent W an email on June 21 advising the client that he

12

would need more information for an affidavit and that W would need to provide

13

"disclosure to the other side." However, he did not inform W of the date for providing

14

disclosure, nor did he set a time for them to discuss the matter. W provided some

15

information to respondent by email, but he later averred that he did not know what was

16

required of him or when the next hearing would be.
Respondent's license lapsed as of July 1, 2011. The New Zealand Law

17
18

Society gave respondent until July 19 to pay the amount owed on the cost award and to

19

apply for renewal of the license, which required payment of a fee of NZ$ 1,426.

20

Respondent submitted a renewal application, but he did not pay any of the fees or costs.4

4

In August 2011, the New Zealand Law Society informed respondent that it

5

Respondent did not inform W that his license had lapsed. He did, however,

1
2

inform Solicitor Smith of that fact in mid-July. Respondent also told Smith that he had

3

prepared the affidavit required by the court and due before a July 21 hearing. Smith

4

refused to permit respondent to file the affidavit. Instead, Smith asked respondent to

5

immediately return all outstanding client files to him, which respondent did. Smith

6

reported to the court and opposing counsel on July 20 that respondent's license had lapsed

7

and that W would need time to obtain alternative counsel. The court conducted a

8

telephone conference on July 21, at the conclusion of which the court ordered W to pay

9

costs of NZ$800 for the failure to timely file the affidavit. The court advised W to seek

10

to recover that cost award from respondent. Thereafter, W spoke to respondent by

11

telephone; respondent told W that he could not pay the NZ$800 or refund even part of the

12

NZ$6,900 advance fee, because he was "broke."

13

D.

14

New Zealand Disciplinary Proceedings
1.

Investigation and charges by the New Zealand standards committee

15

Clients E and W complained to the New Zealand Law Society about

16

respondent's conduct, and the Wellington Branch Standards Committee (Standards

17

Committee) was charged with investigating the complaints and deciding whether to bring

18

formal charges. Respondent was informed of and participated in the investigation. The

19

Standards Committee investigator requested documents relevant to the complaints,

had declined to renew his license, stating that it found his nonpayment of costs
"disgraceful and dishonourable," which is grounds for discipline in New Zealand.

6

1

including, among other things, various financial records. Respondent provided some of

2

the requested documents, but he declined to provide his financial records. The Standards

3

Committee invited respondent to submit any materials he wanted the committee to

4

consider in deciding whether the case should be forwarded to the New Zealand Lawyers

5

and Conveyancers Disciplinary Tribunal (Disciplinary Tribunal or tribunal).
In June 2013, the Standards Committee charged respondent with 12 rule

6
7

violations related to the two client complaints and to his failure to cooperate with the

8

Standards Committee investigation.5 The charges were accompanied by five affidavits,

9

including affidavits from clients E and W and the investigator, as well as a "Bundle of

10

Documents" — documents relevant to the investigation -- which included, among other

11

things, correspondence between respondent and E and W and their new lawyers,

12

respondent's written responses to the complaints and to the investigator, notices of

13

hearings before the Standards Committee, and notices of determinations of the Standards

14

Committee.
Respondent had returned to the United States in February 2013 without

15
16

updating his contact information. As a result, the authorities could not find or serve him

17

with the charges and supporting documents. In October 2013, respondent was served by

18

substitute electronic service (by email). Respondent acknowledged receiving that

19

substitute service and filed a response in November 2014. The matter then came before

20

the Disciplinary Tribunal.

5

One of the charges was later dismissed.
7

1

2.

Proceedings before the New Zealand Disciplinary Tribunal
In January 2014, the Disciplinary Tribunal conducted a telephone

2

3

conference to discuss procedures for the hearing. Respondent stated that he would not be

4

returning to New Zealand and, therefore, would not be able to participate in person at the

5

hearing. The chair of the Disciplinary Tribunal informed respondent that he would be

6

required to appear personally if he wished to participate in the hearing and that the

7

hearing would go forward without him if he were not present. The Disciplinary

8

Tribunal's counsel then proposed that the parties proceed on the written record because

9

there did not appear to be any material facts in dispute or credibility determinations to be

10

made. As the tribunal's counsel later testified in the Oregon disciplinary proceeding,

11

respondent seemed receptive to that idea, and the chair set the matter for hearing on that

12

basis. Respondent did not file a motion or application for permission to appear remotely,

13

nor did he request to reschedule the hearing until a time when he could be present.

14

Respondent and the Standards Committee each provided written submissions, and the

15

Disciplinary Tribunal conducted a brief hearing in November 2014. The Disciplinary

16

Tribunal considered the charges against respondent and both parties' submissions under a

17

"balance of probabilities" standard of proof. New Zealand Lawyers and Conveyancers

18

Act (NZLCA) 2006, § 241. On December 9, 2014, it issued an opinion finding that the

19

Standards Committee had proved all the charged disciplinary rule violations, and it struck

20

respondent from the Roll.

21
22

3.

Appeal to the New Zealand High Court
Respondent appealed the Disciplinary Tribunal decision to the High Court
8

1

in January 2015. Under the applicable statute, the High Court hears appeals in

2

disciplinary proceedings as a rehearing; parties are permitted to introduce new evidence

3

and make new arguments. NZLCA § 253(3). The High Court reaches its own decision

4

on the merits and owes no deference to the Disciplinary Tribunal's findings. It may

5

confirm, reverse, or modify the Disciplinary Tribunal's decision. NZLCA § 253(4).

6

Respondent submitted multiple pleadings to the High Court addressing

7

various issues. He also submitted new evidence, including affidavits concerning, among

8

other things, his health, residency, and financial condition. During the pendency of the

9

appeal, respondent returned to New Zealand.

10

In January 2016, the parties submitted briefs on the merits. In his written

11 ■

submissions, respondent challenged the Disciplinary Tribunal's conclusion that his

12

conduct violated the disciplinary rules. In addition, he claimed that the Disciplinary

13

Tribunal had deprived him of "natural justice" ~ which, the parties agree, is essentially

14

equivalent to due process in this country — in three ways: (1) by denying him the

15

opportunity to appear at the hearing by telephone; (2) by failing to consider his challenge

16

to one of the Disciplinary Tribunal panel members; and (3) by considering the issue of

17

the appropriate sanction notwithstanding that he had not briefed that matter in his written

18

submissions. At a substantive hearing on respondent's appeal, at which respondent was

19

present and participated, the High Court discussed respondent's natural justice arguments

20

and later permitted the parties to submit further affidavits. Both respondent and the

21

Standards Committee availed themselves of that option.

22

The High Court issued its decision in August 2016. It considered the entire
9

1

record, including the additional evidence that respondent had submitted on appeal, and it

2

addressed respondent's natural justice arguments. The High Court dismissed five of the

3

charges against respondent but found him guilty on the remaining six charges (the 12th

4

having earlier been dismissed). Specifically, the High Court determined that respondent

5

had violated the New Zealand disciplinary rules with respect to client E by accepting

6

instructions directly from the client and not from an instructing solicitor, by failing to act

7

in a timely and competent manner, and by failing to repay monies due the client at the

8

termination of representation. With respect to client W, the High Court determined that

9

respondent violated the New Zealand disciplinary rules by failing to act in a timely and

10

competent manner, and by failing to repay monies due the client at the termination of

11

representation. In addition, the High Court determined that respondent violated the New

12

Zealand disciplinary rules by failing to allow a Law Society investigator to examine his

13

financial accounts during the investigation into his misconduct.6 Based on those

14

violations and respondent's disciplinary record,7 the High Court affirmed the sanction that

6
In the client E matter, the High Court found that respondent committed one
violation of Rule 14.4 of the NZLCA (Conduct and Client Care Rules) 2008 (prohibiting
barrister sole from accepting instructions to act for another person other than from a
person licensed to act as a barrister and solicitor) and two violations of Rule 3 of the
NZLCA (Conduct and Client Care Rules) (requiring lawyer to act competently and in a
timely manner consistent with the terms of the retainer and the duty to take reasonable
care). In the client W matter, the High Court found that respondent had committed two
violations of Rule 3. In the ensuing investigation into respondent's misconduct, the High
Court also found that respondent violated Regulation 34(a) of the NZLCA (Trust
Account) Regulations 2008, which requires a lawyer to permit an investigator to examine
records and accounts.
The High Court considered the two Oregon disciplinary proceedings

10

1
2

respondent should be stricken from the Roll.
The High Court also rejected respondent's natural justice arguments. As an

3

initial matter, it concluded that the parties' written submissions did not demonstrate that

4

there had been a need for the Disciplinary Tribunal to conduct an evidentiary hearing;

5

they did not identify any evidentiary issues that were disputed in that tribunal. And, in

6

any case, respondent had not challenged the proposal to submit evidence on the written

7

record and argue the law in written submissions.

8

Turning to the specifics of respondent's three natural justice claims, the

9

High Court first found that the Disciplinary Tribunal should have exercised its discretion

10

to allow respondent to appear at the hearing telephonically, due to his financial condition.

11

However, the High Court also found that respondent was given an opportunity to have

12

that matter reviewed after filing his written submissions with the tribunal, but he did not

13

raise the issue again and, instead, acquiesced to and participated in the process that the

14

tribunal had established. For that reason, the High Court concluded, respondent suffered

15

no violation of his right to be heard.

16

The High Court also rejected respondent's argument that he had been

17

denied natural justice when the Disciplinary Tribunal failed to consider his challenge to

18

the impartiality of one of the panel members. The High Court noted that, while

discussed above, as well as a third disciplinary proceeding in New Zealand in 2012. That
matter arose out of respondent's failure to complete discovery in a proper manner in a
matter in 2011. For that misconduct, respondent was censured, required to reduce his fee,
and ordered to pay compensation and costs.

11

1

respondent had stated in an email that he was "uncomfortable" with one member of the

2

panel, he had never filed a motion challenging that member's participation or otherwise

3

pursued that concern before the Disciplinary Tribunal, and he did not identify the failure

4

to address his discomfort with the panel member as a ground for appeal.

5

Finally, the High Court agreed with respondent that the Disciplinary

6

Tribunal should not have considered the issue of the appropriate sanction without

7

permitting respondent to file further submissions on that subject after it found him guilty

8

of misconduct. Nevertheless, the High Court rejected respondent's argument that he was

9

therefore deprived of natural justice, because respondent had had a full opportunity to

10

present evidence and arguments respecting the appropriate sanction on appeal. As noted,

11

respondent submitted to the High Court, among other things, detailed medical evidence

12

and arguments relating to the earlier Oregon disciplinary decisions. The High Court

13

observed that those were the matters that respondent had argued that he would have put

14

forward to the Disciplinary Tribunal on the question of the appropriate sanction. And,

15

the High Court continued, it had considered all of the new evidence and arguments that

16

respondent had submitted to it and, notwithstanding that evidence, it concluded that "the

17

essential concerns about [respondent's] conduct [were] covered by the charges [that] were

18

upheld *

19

conduct was dishonourable." The High Court, therefore, found that it was appropriate to

20

strike respondent from the Roll.

21
22

* *

[and that the] Tribunal was correct to find that overall [respondent's]

Respondent thereafter filed two separate applications for recall of the High
Court's judgment. The High Court dismissed the applications.
12

1

E.

Current Oregon Disciplinary Proceedings

2

As discussed, the Bar was made aware of the imposition of discipline in

3

New Zealand and initiated a reciprocal discipline proceeding in Oregon. Based on the

4

High Court's findings of violations of the New Zealand disciplinary rules, the Bar alleged

5

that respondent's misconduct violated the following Rules of Professional Conduct:

6

RPC 1.3 (neglect of a legal matter); RPC 1.4(a) (failure to keep a client reasonably

7

informed about the status of a matter); RPC 1.4(b) (failure to explain a matter to the

8

extent necessary to permit a client to make informed decisions about the representation);

9

RPC 1.5(a) (charging or collecting an excessive fee); RPC 1.15-1(d) (failure to account

10

for or return client funds in his possession); RPC 1.16(d) (failure to fulfill duties upon

11

termination of representation); RPC 5.5(a) (practicing law in violation of the regulations

12

of the profession); RPC 8.1(a)(4) (failure to respond to inquiries by a disciplinary

13

authority); and RPC 8.4(a)(4) (engaging in conduct prejudicial to the administration of

14

justice). 8

15

As noted, a trial panel of the Disciplinary Board was convened, and the

16

matter went to a hearing in January 2019. The trial panel issued an opinion, rejecting

17

respondent's arguments that he was not afforded due process in the New Zealand

18

proceeding and concluding that respondent should be reciprocally disbarred in Oregon as

19

a result of his misconduct in New Zealand. Respondent now seeks review of the trial

8

The Bar also initially alleged that respondent's misconduct in New Zealand
violated ORS 9.160(1), but it has abandoned that argument in this court.

13

1

panel's decision.

2

3

n. ANALYSIS
A.

Applicability ofBR 3.5

4

As a preliminary matter, respondent contends that this court does not have

5

authority under BR 3.5 to impose reciprocal discipline, because a foreign country is not a

6

"jurisdiction" within the meaning of that word in BR 3.5(a) and, therefore, the New

7

Zealand decision striking him from the Roll is not a "judgment, order, or determination of

8

discipline" within the meaning of that phrase in BR 3.5(a) and (b). We therefore begin

9

with that issue before turning to consider respondent's challenges to the trial panel's

10
11
12
13
14
15

16
17

18
19
20
21
22
23
24

25
26
27

28
29

decision.
BR 3.5 provides, in part:
"(a) Petition; Notice to Answer. Upon learning that an attorney has
been disciplined for misconduct in another jurisdiction not predicated upon
a prior discipline of the attorney pursuant to these rules, Disciplinary
Counsel shall file with the Disciplinary Board Clerk a petition seeking
reciprocal discipline of the attorney. The petition shall include a copy of
the judgment, order, or determination of discipline in the other jurisdiction;
may be supported by other documents or affidavits; and shall contain a
recommendation as to the imposition of discipline in Oregon, based on the
discipline in the jurisdiction whose action is reported, and such other
information as the Bar deems appropriate. * * *
"(b) Order of Judgment; Sufficient Evidence of Misconduct;
Rebuttable Presumption. A copy of the judgment, order, or determination
of discipline shall be sufficient evidence for the purposes of this rule that
the attorney committed the misconduct on which the other jurisdiction's
discipline was based. There is a rebuttable presumption that the sanction to
be imposed shall be equivalent, to the extent reasonably practicable, to the
sanction imposed in the other jurisdiction."
In support of his argument that the New Zealand judgment striking him

14

1

from the Roll cannot be a basis for discipline in Oregon, respondent points to two cases:

2

Small v. United States, 544 US 385, 125 S Ct 1752, 161 L Ed 2d 651 (2005), and In re

3

Wilde, 68 A3d 749 (DC 2013). Respondent argues that, under those cases, the plain

4

meaning of "jurisdiction" refers only to domestic state and federal jurisdictions, and if the

5

Bar Rules of Procedure were intended to apply to disciplinary judgments from foreign

6

jurisdictions, the rules would say so explicitly. That argument is unpersuasive.

7

BR 3.5 applies to discipline for misconduct in "another jurisdiction" and

8

requires the Bar to provide a copy of the determination of discipline from the "other

9

jurisdiction." The Bar Rules do not define or limit the scope of the word "jurisdiction" in

10

BR 3.5 to only those jurisdictions within the United States. Moreover, respondent points

11

to nothing in the text, the context, or the history of the adoption of BR 3.5 that suggests

12

any reason to interpret that rule to apply only to judgments issued by American courts.

13

In addition, the cases that respondent cites are inapposite and do not assist

14

him. Both cases involve underlying criminal convictions entered against persons outside

15

the United States. In Small, the United States Supreme Court considered whether a

16

conviction in a foreign country can be a predicate crime for a felon in possession of a

17

firearm charge under a federal criminal statute. The Court considered the meaning of the

18

phrase "convicted in any court" in 18 USC § 922(g)(1), which makes it a crime for a

19

person who has been "convicted in any court of a crime punishable by imprisonment for a

20

term exceeding one year" to possess any firearm. The Court held that, for purposes of

21

that criminal statute, the phrase "convicted in any court" encompasses only domestic, not

22

foreign, convictions. Small, 544 US at 386. Similarly, in In re Wilde, the District of
15

1

Columbia Court of Appeals considered the meaning of the phrase "conviction of a crime"

2

in a District of Columbia disciplinary rule that provided for disbarment of lawyers

3

convicted of crimes of moral turpitude. The court interpreted the word "conviction" to

4

apply only to domestic convictions, because foreign convictions differ from domestic

5

convictions in such important ways that it was appropriate to assume that if the rule were

6

intended to apply to foreign convictions it would say so. 68A3dat758.

7

Respondent argues that, notwithstanding the fact that neither case was

8

concerned with the meaning of the word "jurisdiction" in a disciplinary rules context or

9

addressed reciprocal discipline, they nonetheless are instructive because "disciplinary

10

proceedings in a foreign country *

* *

11

same manner that criminal convictions in Oregon can result in disbarment." That

12

argument is not well taken. First, as this court has stated, lawyer discipline proceedings

13

are not criminal prosecutions, In re Sanai, 360 Or 497, 530, 383 P3d 821 (2016) (so

14

stating); see also ORS 9.529 (bar proceedings are sui generis; they are within this court's

15

inherent power to control, and they are neither civil nor criminal in nature), and neither

16

disbarment nor any other sanction is criminal punishment. In re Sassor, 299 Or 720, 728,

17

705 P2d 736 (1985) ("Suspension or permanent disbarment for violations of the

18

Disciplinary Rules is not a form of punishment for criminal conduct or moral turpitude.

19

Its purpose is to protect the public from incompetent, dishonest, or irresponsible

20

professional behavior."). Second, in both Small and Wilde, the decisions turned at least

21

in part on the courts' concern that foreign convictions may be based on conduct that our

22

domestic laws would permit or punish less severely or that would be inconsistent with an

bring characteristics of criminal convictions in the

16

1

American understanding of fairness. Small, 544 US at 389-90; Wilde, 68 A3d at 756. No

2

such concern exists in reciprocal discipline proceedings, because BR 3.5 ensures that the

3

conduct for which the lawyer was disciplined in the other jurisdiction was conduct that

4

would subject a lawyer to discipline in Oregon. BR 3.5(c)(2). Moreover, under BR 3.5,

5

reciprocal discipline can be imposed only if the lawyer was afforded due process in the

6

other jurisdiction. BR 3.5(c)(1). For those reasons, we conclude that the Oregon Rules

7

of Professional Conduct provide for reciprocal discipline based on a determination of

8

discipline against an Oregon lawyer who has committed professional misconduct in

9

another jurisdiction, whether that other jurisdiction is foreign or domestic, so long as the

10

requirements for reciprocal discipline are met.

11

B.

12

Regulatory Framework
We turn now to a brief description of those requirements and our process

13

for determining whether to impose reciprocal discipline. In a reciprocal discipline

14

proceeding, the order of discipline is "sufficient evidence

15

committed the misconduct on which the other jurisdiction's discipline was based." BR

16

3.5(b). For that reason, the Oregon disciplinary proceeding may not be used to challenge

17

the factual findings of the foreign jurisdiction. Sanai, 360 Or at 500. Instead, this court's

18

decision whether to impose reciprocal discipline turns on three questions: (1) whether

19

the procedure in the jurisdiction that disciplined the lawyer "was so lacking in notice or

20

opportunity to be heard as to constitute a deprivation of due process," (2) whether the

21

conduct for which the lawyer was disciplined in the other jurisdiction is conduct that

22

should subject the lawyer to discipline here in Oregon, and (3) whether imposing the
17

* * *

that the attorney

1

same sanction that the other jurisdiction imposed would result in "grave injustice or be

2

offensive to public policy." BR 3.5(c). It is the lawyer's burden to prove that due process

3

was not afforded him or her in the other jurisdiction. BR 3.5(e).

4

C.

Respondent's Due Process Arguments
Respondent argues that he was denied due process in the New Zealand

5
6

proceeding in seven ways. Several of those arguments pertain to events that occurred

7

before the Disciplinary Tribunal. As we have discussed, respondent appealed the

8

decision of the Disciplinary Tribunal to the High Court. Respondent participated fully in

9

the proceedings before the High Court. Further, the High Court permitted the parties to

10

submit additional evidence and arguments, and it considered the matter de novo.9

11

Therefore, any deficiencies in the process before the Disciplinary Tribunal were cured by

12

the subsequent proceeding before the High Court, and respondent does not dispute that he

9

The High Court also observed that certain of respondent's "natural justice"
arguments pertaining to events before the Disciplinary Tribunal were unpreserved or
asserted alleged violations of his clients' rights and not his own. In addition, we note that
one of respondent's claimed due process violations is based on his contention that he was
not given adequate notice that his license would not be renewed. We reject that
contention. As recounted above, when respondent renewed his license in 2010, he did so
subject to the condition that he make monthly payments on the costs assessed in 2008.
Despite that condition, respondent made only one payment. Then, in April and June
2011, the Law Society sent respondent letters reminding him that all licenses had to be
renewed by July 1 and that it could take his failure to make the payments into account
when determining whether to renew his license. Nevertheless, respondent still did not
make the payments. He allowed his license to lapse on July 1. The Law Society told
respondent that, in order to renew his license, he would need to pay the overdue cost
award and the renewal fee. Although respondent submitted a renewal application, he
failed to pay both the cost award and the renewal fee. We conclude that respondent had
more than sufficient notice of what he needed to do to renew his license.

18

1

received a full rehearing, with the opportunity to present additional evidence and

2

argument, in that court. For that reason, we reject those arguments without discussion.
Respondent makes two arguments that merit brief examination. As we

3
4

shall explain, however, neither argument is well taken.
First, respondent argues that he was deprived of due process in the New

5
6

Zealand proceeding because the New Zealand courts use a "balance of probabilities"

7

standard of proof, whereas Oregon courts use the higher "clear and convincing" evidence

8

standard of proof. At oral argument in this matter, however, respondent conceded that

9

Oregon courts are under no constitutional mandate to use a clear and convincing evidence

10
11
12

standard of proof as opposed to any lesser standard of proof. And, in fact, this court
routinely imposes reciprocal discipline in cases where the other jurisdiction sanctioned a
lawyer based on a standard less than clear and convincing evidence.10
Second, respondent argues that the New Zealand rules of professional

13
14

responsibility are unreasonably vague, insofar as, for example, they permit discipline on a

15

finding of misconduct, which is defined as conduct "that would reasonably be regarded

10

For example, in Sanai, this court imposed reciprocal discipline on a lawyer
whom the Washington Supreme Court had disbarred. Sanai, 360 Or at 543. In
Washington, lawyer misconduct must be proved by "a clear preponderance of the
evidence." Washington State Court Rules, Rule for Enforcement of Lawyer Conduct
10.14(b). Likewise, this court imposed a reciprocal suspension on a lawyer who had
entered into a stipulation for discipline in Washington in In re Page, 326 Or 572, 955 P2d
239 (1998). And in In re Defers, 317 Or 261, 263, 855 P2d 617 (1993), the court
reciprocally suspended a lawyer after he was suspended for unethical conduct in
Michigan. In Michigan, lawyer misconduct must be established by a preponderance of
the evidence. Michigan Court Rule 9.115(J)(3).

19

1

by lawyers of good standing as disgraceful or dishonourable." Lawyers and

2

Conveyancers Act 2006, § 7(l)(a)(i). Respondent's argument ignores the fact that the

3

High Court found that respondent committed six violations of the New Zealand Lawyers

4

and Conveyancers Act, involving three separate and specific provisions of that law,

5

which the High Court quoted and discussed in its opinion, and it imposed discipline on

6

that basis. Therefore, the fact that the New Zealand disciplinary rules include some terms

7

that, on their face, may appear vague, does not persuade us that, as a whole, the New

8

Zealand attorney discipline system does not provide lawyers with notice of what is

9

expected.
As is evident from the foregoing, we conclude that respondent has not met

10
11

his burden to establish that he was deprived of due process in the New Zealand

12

proceedings leading to his disbarment.

13

D.

14

The Oregon Charges and the Appropriate Sanction
As we have explained, the High Court found that respondent violated the

15

New Zealand rules of professional conduct by commencing work for client E without

16

proper authority and, in both the client E and the client W matters, by failing to complete

17

the representation and then refusing to return unearned fees. The High Court also found

18

that respondent failed to cooperate with disciplinary authorities in the investigation into

19

his misconduct. The Bar alleged and the trial panel found that that misconduct in New

20

Zealand also violated the following Oregon Rules of Professional conduct: RPC 1.3

21

(neglect of a legal matter); RPC 1.4(a) (failure to keep a client reasonably informed about

22

the status of a matter); RPC 1.4(b) (failure to explain a matter to permit client to make
20

1

informed decisions regarding the representation); RPC 1.5(a) (charging an excessive fee);

2

RPC 1.15-l(d) (failure to account for client funds); RPC 1.16(d) (failure upon

3

termination to take steps to protect client interests, including refunding unearned portions

4

of fees paid in advance); RPC 5.5(a) (practicing law in violation of the regulations of the

5

profession); RPC 8.1(a)(2) (knowing failure to respond to lawful demand for information

6

from a disciplinary authority); and RPC 8.4(a)(4) (engaging in conduct prejudicial to the

7

administration of justice).
Respondent asserts, without elaboration, that his misconduct in New

8
9

Zealand violated only two Oregon disciplinary rules, RPC 1.4(a) and RPC 8.1(a)(2), and

10

that those two violations are insufficient to justify disbarring him in Oregon. We agree

11

with the Bar and the trial panel that respondent's conduct in New Zealand would violate

12

the Rules of Professional Conduct as set out above. We turn, therefore, to consider the

13

appropriate sanction for respondent's misconduct. In so doing, we keep in mind the final

14

consideration required by BR 3.5: whether imposing the same sanction that the other

15

jurisdiction imposed would result in "grave injustice or be offensive to public policy."

16

BR 3.5(c)(3).

17

In reciprocal discipline cases, this court has an independent obligation to

18

determine the appropriate sanction based on this state's disciplinary rules. Sanai, 360 Or

19

at 538. In so doing, we refer first to the American Bar Association's Standards for

20

Imposing Lawyer Sanctions (1991) (amended 1992) (ABA Standards) for guidance. In re

21

Walton, 352 Or 548, 555, 287 P3d 1098 (2012). Under the framework established by the

22

ABA Standards, we first consider the duty violated, the accused's mental state, and the
21

1

actual or potential injury caused by the accused's misconduct. ABA Standard 3.0. Next,

2

we consider any aggravating and mitigating circumstances. Sanai, 360 Or at 538.

3

Finally, we consider the appropriate sanction in light of this court's case law. Id.

4

Respondent violated his duties of diligence and competence to both clients

5

E and W. By collecting fees for work he did not perform, practicing law in violation of

6

New Zealand law and regulations, and failing to cooperate with the Standards Committee

7

investigation, respondent violated duties owed to the legal profession. Further, the record

8

of the New Zealand proceeding demonstrates that respondent acted knowingly or

9

intentionally with respect to each of the violations. And respondent's conduct resulted in

10

actual injury to both client E and client W, who were never refunded the advance fees

11

they paid for services that respondent did not perform. Client W also was forced to pay a

12

NZ$800 cost assessment arising out of respondent's failure to submit a required affidavit.

13

Based on the disciplinary violations that we have found and our

14

conclusions respecting the duties violated, respondent's mental state, and the injuries

15

caused by respondent's misconduct, the presumptive sanction under the ABA Standards

16

is disbarment. That is, disbarment is generally appropriate when a lawyer either

17

knowingly fails to perform services for a client and causes serious or potentially serious

18

injury, or engages in a pattern of neglect with respect to client matters and causes serious

19

or potentially serious injury. ABA Standard 4.41(b), (c). In addition, disbarment is

20

generally appropriate when a lawyer has been suspended for the same or similar

21

misconduct, and intentionally or knowingly engages in further acts of misconduct that

22

cause injury or potential injury to a client, the public, the legal system, or the profession.
22

1
2

3
4

ABA Standard 8.1 (b).
We next consider the existence of aggravating or mitigating circumstances
that may affect our sanction determination.
We find several aggravating circumstances that are relevant to our

5

determination. First, respondent has a significant history of similar disciplinary offenses.

6

ABA Standard 9.22(a). As discussed, respondent was suspended in 2006 for one year for

7

failing to deposit and maintain client funds in trust, failing to maintain complete records

8

of client funds in his possession and to render appropriate accountings of those funds,

9

failing to maintain an interest-bearing trust account, engaging in conduct prejudicial to

10

the administration of justice, and failing to respond fully and truthfully to inquiries from,

11

and comply with reasonable requests of, an investigatory authority. Skagen, 342 Or 183.

12

Again in 2008, respondent was suspended for 18 months by a Disciplinary Board trial

13

panel for failing to keep sufficient records of client funds in his possession and failing to

14

deposit and maintain in trust unearned fees paid in advance. Skagen, 22 DB Rptr 292.

15

And in 2012, respondent was subject to discipline in New Zealand; he was censured,

16

required to reduce his fee, and ordered to pay compensation and costs for failure to

17

complete discovery in a proper manner in a matter.

18

In addition we find that, in failing to return unearned fees to clients E and

19

W, respondent acted with a selfish motive. ABA Standard 9.22(b). And we find that

20

respondent has engaged in a pattern of misconduct, ABA Standard 9.22(c), and that he

21

has committed multiple offenses, ABA Standard 9.22(d).

22

We also find that respondent has refused to acknowledge the wrongfulness
23

1

of his conduct. ABA Standard 9.22(g). For one example, in the New Zealand

2

proceeding, after initially admitting that he was required to repay client E the fees he had

3

paid in advance, he later argued to the Disciplinary Tribunal that E had breached the

4

retainer agreement and therefore repayment was not required. The High Court found that

5

taking such a position was "disingenuous and dishonest," and, in the terms used in the

6

applicable statute, "disgraceful and dishonourable." And in this proceeding, respondent

7

has refused to concede that his misconduct in New Zealand violated several similar

8

Oregon disciplinary rules, and he continues to maintain that he is and always has been

9

entitled to disobey requests from disciplinary authorities for his financial records.

10
11
12

Finally, respondent has substantial experience in the practice of law. ABA
Standard 9.22(i).
The record reflects only one mitigating factor: respondent's disbarment in

13

New Zealand constitutes the imposition of another sanction for the misconduct. ABA

14

Standard 9.32(k). On balance, the aggravating factors outweigh the sole mitigating factor

15

and support a determination to disbar respondent.

16

Turning to Oregon case law, we observe that this court has disbarred

17

lawyers whose collective misconduct demonstrated disregard for clients, professional

18

obligations, and the disciplinary rules. It has "ordered disbarment for conduct that

19

otherwise would justify a long suspension when the accused has a history of misconduct

20

that has resulted in prior disciplinary sanctions." In re Paulson, 346 Or 676, 722, 216

21

P3d 859 (2009), adh'd to as modified on recons, 349 Or 529,255 P3d 41 (2010). The

22

court has disbarred lawyers for engaging in a pattern of misrepresentation, neglect, and
24

1

failure to act on behalf of clients. E.g., In re Sousa, 323 Or 137, 146-47, 915 P2d 408

2

(1996). And it has disbarred lawyers who neglect clients' cases and refuse to cooperate

3

with regulatory authorities after already having been disciplined for the same or similar

4

misconduct. In re Bourcier, 325 Or 429, 436-37, 939 P2d 604 (1997). Those cases also

5

support a determination to disbar respondent.

6

After considering the ABA Standards and our case law, we conclude that

7

the misconduct for which respondent was struck from the Roll in New Zealand warrants

8

disbarment in Oregon. We also find nothing in the record to suggest that disbarring

9

respondent "would result in grave injustice or be offensive to public policy." BR

10

3.5(c)(3). We therefore hold that respondent should be disbarred as a reciprocal sanction

11

for his misconduct in New Zealand.

12

Respondent is disbarred.

25

AjfpendW ■ £>
Received DB Clerk
04/10/2019
IN THE SUPREME COURT
OF THE STATE OF OREGON
In re:
Complaint as to the Conduct of
CHRISTOPHER SKAGEN,
Respondent.

)
)
)
)
)
)
)

Nos. 18-149
Trial Panel Opinion

In this reciprocal disciplinary proceeding pursuant to BR 3.5 the Oregon State Bar
(“Bar”) seeks an order disbarring respondent Christopher K. Skagen based on the fact that he
was struck from the Roll of Barristers and Solicitors in New Zealand, the equivalent of
disbarment in that country. The High Court of New Zealand, Wellington Registry (“High
Court”) struck respondent from the Roll based on respondent’s multiple disciplinary rale
violations and significant disciplinary history.
The hearing was held on January 29, 2019 at the offices of the Bar. The Bar appeared by
and through counsel, Courtney Dippel. Respondent appeared via video and represented himself.
The trial panel consisted of the Adjudicator, Mark Turner, the Attorney Panel Member, Michael
McGrath, and the Public Panel Member, Charles Martin.

The panel heard evidence and

argument and also considered post-hearing briefing on certain issues.
For the reasons discussed below, we conclude that respondent was afforded due process
in connection with the imposition of discipline in New Zealand. Respondent participated in the
disciplinary proceeding, received notice of the charges, had repeated opportunities to be heard,
and was fully heard before the disciplinary violations were found and he was stricken from the
Roll.
We find that the presumptive sanction of disbarment is warranted here. Respondent’s
conduct would merit the same sanction under Oregon law. The sanction does not result in grave

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 1

injustice, nor is it offensive to public policy. See BR 3.5(a). We order that respondent is hereby
disbarred in this state.
PROCEDURE EMPLOYED
The process for reciprocal discipline is set forth in BR 3.5. Reciprocal discipline
proceedings are limited proceedings. BR 3.5(c) identifies the three issues that can be addressed
by respondent in his answer. They are: 1) Whether the procedure involved in the imposition of
discipline lacked notice and opportunity to be heard such that due process was denied; 2)
Whether the conduct involved is conduct that should subject respondent to discipline in this
state; and 3) Whether imposition of an equivalent sanction would result in grave injustice or be
offensive to public policy. This proceeding is not to be used to challenge the factual findings of
the foreign jurisdiction. In re Sanai, 360 Or 497, 500, 383 P3d 821 (2016) (citing In re Devers,
317 Or 230, 264-65, 855 P2d617 (1999)).
The rules further state that, “a copy of the judgment, order, or determination of discipline
shall be sufficient evidence for the purposes of this rule that the attorney committed the
misconduct on which the other jurisdiction’s discipline was based. There is a rebuttable
presumption that the sanction imposed shall be equivalent, to the extent reasonably practicable,
to the sanction imposed in the other jurisdiction.” BR 3.5(b).
Respondent has the burden of proving that due process of law was not afforded to him in
New Zealand. BR 3.5(e). The hearing was conducted in accordance with BR 5.1 and 5.3, as
dictated by BR 3.5(g).

THE NEW ZEALAND PROCEEDINGS
New Zealand’s disciplinary system is similar to ours. The proceedings first were before
the New Zealand Lawyers and Conveyances Disciplinary Tribunal (“Tribunal”) and then before
the High Court on appeal.

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 2

A. The Tribunal Proceeding
When complaints against respondent were made they were investigated by the Standards
Committee of the Wellington Branch of the New Zealand Law Society (“Standards
Committee”). The Standards Committee was charged with investigating the complaints and
deciding whether formal charges should be filed against respondent. Respondent was told of and
participated in the investigation.
Respondent was notified of the complaints and he provided a response, similar to the
procedures employed in Oregon. The Standards Committee appointed an investigator and the
investigator met with respondent.

He provided the investigator with some documents, but

declined to provide others that had been requested. The Standards Committee told respondent
when it would consider the complaints and invited him to submit any materials he wanted the
Standards Committee to consider in deciding whether the case should be forwarded to the
Tribunal.
On June 19, 2013, the Standards Committee filed charges against respondent alleging
twelve rule violations relating to two client complaints as well as to respondent’s failure to
cooperate with the Standards Committee.1 The charges were accompanied by five affidavits,
which were given by the two clients, the instructing solicitor who had instructed respondent,2 the
investigator, and a Legal Standards Officer for the New Zealand Law Society Lawyers
Complaint Service.3
The charges were accompanied by a “Bundle of Documents.”

It consisted of twenty-

seven separate items. They included, among other things, correspondence between respondent,
his clients, and his clients’ subsequent legal representatives; the complaints filed with the Law
Society; respondent’s written responses to the complaints during the investigation; respondent’s
1 Ex. 1.
2 Barristers who practice in court often need to receive their instructions from an instructing solicitor rather than
from the client directly.
3 Ex. 2.

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 3

written responses to the investigator; the investigator’s report to the Standards Committee;
Notices of Hearings before the Standards Committee; and Notices of Determination by the
Standards Committee.4 Respondent had adequate notice of the charges against him.
Sometime in 2013, respondent left New Zealand and returned to the United States. The
authorities found it difficult to find and serve him with the documents that started the formal
proceeding before the Tribunal, but on October 1, 2013, the charges, affidavits, and Bundle of
Documents were ultimately served by substitute electronic service.5 On November 6, 2013,
respondent filed a response to the charges along with an affidavit explaining why he did not
believe he violated any rules.6
On January 31, 2014, the Tribunal held a conference call with the parties.

They

discussed the procedure for the hearing.7 During the call, respondent stated that he would not
return to New Zealand to appear in person at the hearing.8 The judge told respondent that a
personal appearance was required if he wished to participate in the hearing and that the hearing
would proceed even if he were not present.9
As an accommodation, it appears that counsel for the Standards Committee, Timothy
McKenzie, proposed that the parties proceed based on written submissions. He reasoned that
there did not appear to be any material facts in dispute or credibility determinations to be made.10
He also noted that the response to the charges presented only legal questions.11 McKenzie
testified at this hearing that respondent seemed receptive to his proposal to proceed on written
submissions and the judge set the matter for further hearings.12

4 Ex. 3.
5 Exs. 2-3; Ex. 35.
6 Exs. 6-7; Ex. 35.
7 Exs. 35, 36, 37, 39.
8 Ex. 39.
9 Ex. 39.
10 Ex. 39.
11 Ex. 39.
12 Ex. 39.
IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 4

The Standards Committee filed its written submissions on February 25, 2014.13 On
March 30, 2014, respondent asked for an extension of time to file his submissions, which was
granted.14 On May 13, 2014, respondent asked for another extension of time.15 On November 5,
2014, the hearing on the merits was set for November 28, 2014.16 Respondent filed his
submissions two days before, on November 26, 2014. He did not raise the possibility of a video
or telephone appearance at that time.17 In fact, he did not broach the subject between the January
31, 2014 conference call and the November 28, 2014 hearing. He also made no request to
reschedule or adjourn the hearing to allow him to attend in person.18
The hearing took place on November 28, 2014.19 The Tribunal consisted of five
members: a retired judge, two lawyers, and two public members. Respondent did not appear. In
his absence, the Tribunal proceeded to a formal proof hearing. The Standards Committee had to
prove the charges to New Zealand’s standard of proof, which is a balance of probabilities.20 The
Tribunal conducted a short hearing, considered both parties’ submissions, and on December 9,
2014, issued an opinion striking respondent from the Roll of Barristers and Solicitors.21
B. The High Court Proceeding
Respondent appealed the decision to the High Court on January 22, 2015.22 During 2015
respondent filed multiple pleadings with the High Court addressing various issues, including
security for costs on appeal, several amended notices of appeal, leave to file new evidence, and

13 Ex. 8.
14 Ex. 35.
15 Ex. 35.
16 Ex. 35.
17 Exs. 9, 40.
18 Exs. 35, 40.
19 Ex. 10
20 Respondent mentioned, without elaboration, possible due process concerns resulting from an evidentiary standard
in New Zealand that is less than our clear and convincing standard. The issue is irrelevant here, however, since
there were no disputed issues of fact where the standard of proof would come into play.
21 Exs. 8, 10.
22 Ex. 11.

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 5

supporting affidavits.23 Respondent’s affidavits also addressed his health, residency, and
financial condition.24 During the course of the appeal, respondent returned to New Zealand.
In January of 2016, the parties filed submissions on the merits.25 Respondent raised due
process arguments. He claimed he had been deprived of “natural justice,” the New Zealand
equivalent of due process, when he was not allowed to appear by telephone at the Tribunal’s
hearing. He also argued that he was denied natural justice when the Tribunal considered the
issue of sanction even though he had not addressed that issue in his written submissions.26
On February 5, 2016, the High Court held a substantive hearing on the appeal.
Respondent was present and participated. The High Court and the parties discussed respondent’s
natural justice argument about the denial of a telephone appearance at the Tribunal hearing.27
Four days later the High Court issued a Minute Order asking respondent if he accepted
statements by McKenzie as an accurate summary of the January 31, 2014 conference call. If not,
the High Court invited the parties to submit further affidavits.28 Respondent filed an affidavit on
February 18, 2016, and the Standards Committee filed an affidavit from McKenzie on February
22, 2016.29
The High Court heard the appeal as a rehearing. It could have confirmed, reversed, or
modified the Tribunal’s decision.30 The High Court was required to reach its own decision on the
merits. It owed no deference to the Tribunal’s findings.31
The High Court issued its decision on August 1, 2016. In considering the entire record,
including the additional evidence respondent submitted on appeal, as well as respondent’s

23 Exs. 12- 20, 27-28.
24 Exs. 14, 15,17, 18, 19, 20,28, 33, 37.
25 Exs. 32-34.
26 Ex. 32.
27 Ex. 36.
28 Ex. 36.
29 Exs. 37-39.
30 Exs. 31,34.
31 Ex. 34.
IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 6

natural justice arguments, the High Court dismissed five of the charges, but confirmed the guilty
findings on the other six. It also affirmed the penalty of striking respondent from the Roll.32
As to the Tribunal hearing, the High Court found that the parties’ written submissions did
not show a need for a hearing on evidentiary matters, “nor did they point to any evidential issues
that were in dispute.”33 The High Court further found that McKenzie’s proposal to accept the
evidence and then argue the law on written submissions was not challenged by respondent.34
As to the natural justice arguments, the High Court found that the Tribunal should have
exercised discretion to allow respondent to participate in its hearing by telephone due to his
financial condition. However, the High Court further concluded: “Mr. Skagen was given the
opportunity to have this matter reviewed following the filing of submissions. He did not raise the
matter again pursuant to that opportunity. He proceeded on the basis the [Standards Committee]
had proposed. In these circumstances no breach of his right to be heard occurred in this
respect.”35
As to the sanction, the High Court found that the Tribunal should have allowed
respondent to file further submissions on the question after it found him guilty of misconduct. It
again concluded, however, that, “Mr. Skagen had a full opportunity to present evidence and
submissions in respect of penalty on this appeal. He has filed detailed medical evidence as well
as the decisions in Oregon concerning the disciplinary matters he faced in that jurisdiction. These
are the matters he would like to have put before the Tribunal. ”36
The High Court considered all of respondent’s new evidence on the issue of sanction.
The High Court said that it was, “[satisfied that the essential concerns about Mr. Skagen’s

32 Ex. 40. The Standards Committee originally filed twelve charges. It voluntarily dismissed an
excessive fee charge at the November 28, 2014 hearing. See Ex. 10.
33 Ex. 40.
34 Ex. 40.
35 Ex. 40.
36 Ex. 40.
IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 7

conduct are covered by the charges which were upheld. The matters were serious.... His conduct
was poor and fell well below that expected of a barrister. The Tribunal was correct to find that
overall his conduct was dishonourable.” Considering all relevant factors, the High Court was,
“[ujnable to accept Mr. Skagen’s submission that he should have been subject to a penalty less
than being struck off the Roll.” The High Court held that the penalty was appropriate.37
On August 5, 2016, respondent filed an affidavit in support of an Application for Recall
of the High Court’s August 2, 2016 Judgment.38 Respondent filed submissions in support of his
request on October 7, 2016. A hearing was held on the Application for Recall on October 18,
2016.39 The High Court dismissed the Application for Recall on November 22, 2016.40
Respondent did not appeal the High Court’s judgments to the New Zealand Court of Appeal.
ANALYSIS
Respondent has the burden of proving that he was denied due process in the New Zealand
disciplinary action. BR 3.5(e).
“The essential elements of due process in the context of a lawyer discipline proceeding
are notice and an opportunity to be heard and defend in an orderly proceeding adapted to the
nature of the case before a tribunal having jurisdiction of the cause.” In re Defers, 328 Or at 232;
(quoting In re Farris, 229 Or 209, 214, 367 P2d 381 (1961)); In re Sanai, 360 Or at 527 (quoting
In re Devers, supra).41 This is the yardstick by which we measured the New Zealand process.

37 Ex. 40.
38 Ex. 41.
39 Ex. 42.
40 Ex. 43.
41 The Bar argues that the Oregon Supreme Court has rarely found a due process violation in disciplinary
proceedings. It cites a number of cases: In re Sanai, 360 Or at 517-35 (no denial of due process based on: challenge
to the impartiality of Washington Supreme Court where lawyer showed no personal interest by any justice;
argument that regional chair, not state chair, appointed trial panel members in violation of procedural rule; or panel’s
denial of respondent’s motion to have his lawyer/brother admitted pro hac vice to represent respondent mere days
before the hearing.); In re Devers, 328 Or at 235 (no due process violations where panel denied respondent’s
motions to have counsel appointed to represent him, to reschedule the hearing, or to disqualify a panel member filed
six months after the hearing;); In re Paulson, 341 Or 542, 546, 145 P3d 171 (2006) (no denial of due process based
on appointment of disciplinary board members); In re Harris, 334 Or 353, 364, 49 P3d 778 (2002) (no denial of due
process for failing to provide counsel to a respondent); In re Lenske, 269 Or 146, 163, 523 P2d 1262 (1974) (no due

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 8

A. Respondent Was Afforded Due Process in New Zealand
We find that respondent received due process of law, or natural justice, in the New
Zealand proceeding. Respondent had notice of the charges against him and opportunities to be
heard before the Tribunal and the High Court. Before the Tribunal, respondent filed a response to
the charges, a supporting affidavit, and his own written submissions regarding why his conduct
did not violate any of the specified rales. The High Court found that respondent had agreed with
the Standards Committee’s proposal to accept the evidence and argue the law by written
submissions. The Tribunal considered all of respondent’s arguments before making its decision.
Nothing further was required.
The High Court also held that respondent could have moved to participate at the hearing
by telephone or moved to adjourn the proceeding to a time when he returned to New Zealand
(which he did do during his appeal), but he failed to do so. He filed multiple pleadings between
January 31, 2014, and the Tribunal’s hearing on November 28, 2014, and could have made such
motions then. The Tribunal’s insistence on a personal appearance did not deprive respondent of
due process. Moreover, he appeared in person at the re-hearing before the High Court and was
able to make all of the arguments he would have made before the Tribunal.
Respondent was not denied due process when the Tribunal considered the issue of
sanction without affording respondent a chance to address the issue in writing. The High Court
found that respondent was able to fully brief the issue on appeal. Respondent did present all the
evidence to the High Court that he would have presented to the Tribunal on the question.
The High Court’s standard of review was equivalent to the de novo review used by the
Oregon Supreme Court. The High Court independently considered all of the evidence and

process violation where lawyer was not allowed to explain prior inconsistent testimony before complaint was filed
because he had full opportunity to do so before trial committee). The general trend is not without an exception
however. See In re Hendrick, 346 Or 98, 105, 208 P3d 488 (2009) (board chair erred in denying peremptory
challenge to second appointed panel after first panel was dismissed).

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 9

arguments, including that which respondent said had not been considered by the Tribunal. On
that complete record, and after dismissing certain of the charges, the High Court still concluded
that the penalty imposed was appropriate. Even if one could find some fault with the Tribunal’s
proceedings, it was remedied completely when respondent was able to present his entire case to
the High Court.
Although he did not discuss this issue at the hearing before this panel, respondent had
argued in New Zealand that he was denied natural justice because the Tribunal did not consider
his challenge to a panel member. We agree with the High Court that such a claim is without
merit. Respondent mentioned the issue in his appeal, but the High Court found that he did not
identify it as a grounds for appeal. It also noted that he did not pursue it before the Tribunal. He
never filed any motion or other pleading challenging any of the Tribunal’s members based on
allegations of bias. Respondent apparently sent an email saying he was “uncomfortable” with a
panelist, but he never moved to strike him from the panel. This argument was unpreserved before
the High Court and we find that respondent did not take any steps that would make it possible for
us to consider the issue here. Any objection to the alleged impartiality of a panel member must
be made at least by the time of trial in order to be preserved for consideration. In re Devers, 328
Or at 235 (respondent’s motion to disqualify a panel member six months after completion of
hearing was untimely and thus unpreserved). Proceeding before the panel as constituted was not
a denial of due process.
B. Respondent’s Misconduct Would Subject Him to Disbarment in Oregon
Respondent’s misconduct is set forth in the High Court’s August 2016 judgment.
Respondent committed multiple disciplinary violations, first against two separate clients, and
then against New Zealand’s regulatory authority. In both cases, respondent took flat fees for his

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 10

work, deposited the funds, failed to complete the representation, and then refused to refund the
unearned portions of his fees to clients.42
Respondent then failed to protect his clients’ interests when he learned the original
instructing solicitor had a conflict and was unable to act for one of respondent’s clients and when
he continued practicing after learning his practicing certificate had expired.43
Respondent failed to keep a client reasonably informed about the status of an ongoing
court proceeding and the client’s discovery obligations, which caused his client to incur court
costs. He failed to tell the client that his practicing certificate had expired and that he could not
continue the representation.
After the clients complained, respondent failed to cooperate with the regulatory authority.
He refused to provide bank statements to the Standards Committee’s investigator. 44
We agree with the Bar that this conduct would violate nine Rules of Professional Conduct
and one statute in this state.45
Respondent also has prior disciplinary history for similar violations.46 Given the number
of instances of misconduct and the aggravating effect of his prior disciplinary history, disbarment

42 Tr. Ex. 40; Petition for Reciprocal Discipline, (“Petition), Ex. 45, pp. 2-6.
43 Id
44 Id
45 RPC 1.3 [neglect]; 1.4(a) [duty to keep a client reasonably informed about the status of a matter]; 1.4(b)
[duty to explain a matter to permit client to make informed decisions regarding representation], 1.5(a)
[charging or collecting an excessive fee]; 1.15-l(d) [duty to render a full accounting regarding the client’s
funds and property]; 1.16(d) [duties upon termination of representation]; 5.5(a) [practicing law in
violation of regulations of the profession]; 8.1(a)(2) [duty to respond to disciplinary counsel]; 8.4(a)(4)
[conduct prejudicial to the administration of justice]; and ORS 9.160(1) [practicing law or representing
that person is qualified to practice law when not an active member of the Bar].
Respondent has been suspended twice by the Oregon Supreme Court and a trial panel for similar
violations as those found in New Zealand, including multiple trust account violations, dishonest conduct,
charging or collecting an excessive fee, engaging in conduct prejudicial to the administration of justice,
failing to cooperate and respond fully and truthfully to disciplinary counsel, failing to deposit and
maintain client money in lawyer trust account until earned, and failing to safeguard client property. In re
Skagen, 342 Or 183 (2006); In re Skagen, 22 DB Rptr 292 (2008).

46

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 11

would not result in grave injustice or be offensive to public policy. On the contrary, we believe
that disbarment is appropriate and warranted.
The Oregon Supreme Court refers to the ABA Standards for Imposing Lawyer Sanctions
(“Standards”), in addition to its own case law, for guidance in determining the appropriate
sanctions for lawyer misconduct. The most important ethical duties a lawyer owes are to his
clients. Standards at 5. A lawyer who engages in multiple instances of misconduct and fails to
cooperate with disciplinary authorities is recognized as a threat to the profession and the public.
In re Bourcier (II), 325 Or 429, 436, 939 P2d 604 (1997).
The Oregon Supreme Court has consistently disbarred lawyers where the lawyers’
collective misconduct demonstrated an intentional disregard for their clients, their professional
obligations, and the disciplinary rules. While “[c]ase-matching in the context of disciplinary
proceedings is an inexact science,” the court has held that, “We have ordered disbarment for
conduct that otherwise would justify a long suspension when the accused has a history of
misconduct that has resulted in prior disciplinary sanctions.” In re Paulson, 346 Or 676, 721-22,
216 P3d 859 (citing In re Miller, 310 Or 731 (1990)).
In the same vein, in In re Sousa, disbarment was appropriate when the court found the
attorney guilty of 16 violations in four separate cases. “The accused engaged in a continuous
pattern of misrepresentations, neglect, failure to act in behalf of his clients, and failure to
acknowledge his ethical obligations, and respond to the Bar’s investigation, thereby causing
injury to his clients. That course of conduct mandates that the accused be disbarred from the
practice of law.” 323 Or 137, 147, 915 P2d 408 (1996); see also In re Spies, 316 Or 530, 541,
852 P2d 831 (1993) (disbarment where lawyer committed 17 violations in seven separate
matters). “In this case, we disbar the accused based on the aggregate conduct described herein.
She violated duties to her clients, to the public, to the legal system, and to the legal profession.”
In re Spies, 316 Or at 541.

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 12

*■

Failure to cooperate with the regulatory authorities after having already been disciplined
has also led to disbarment. In re Bourcier II, 325 Or at 436. In that case the court found that the
attorney’s failure to cooperate with the Bar’s investigation occurred after he had received the
maximum sanction, short of disbarment, for similar misconduct. Continued misconduct in the
face of the lawyer’s own disciplinary experience, was “particularly serious.” Id. at 436. “[T]he
accused repeatedly failed to respond to inquiries from the Bar after this Court already had
disciplined him, with a three year suspension, for the same misconduct.” Id. Although the
respondent there had committed only two violations, neglect and failure to cooperate in a
disciplinary investigation, disbarment was warranted given the chronology of his misconduct. Id.
at 435-36.
In the New Zealand case, respondent committed nine separate rule violations towards his
clients and the regulatory authority beginning in 2011 after having been disciplined for similar
misconduct in Oregon in 2006 and 2008. We are compelled to fmd that respondent’s conduct
demonstrates a persistent disregard for the Rules of Professional Conduct, the duties that he
owed to his clients, to the public, and to the profession, and that disbarment is the only
appropriate sanction.
C. Additional Legal Challenges Raised in Respondent’s Amended Answer are
Denied
Respondent also raised two additional arguments in an amended answer on the eve of
trial. BR 3.5(a) provides, in relevant part, that reciprocal discipline can be sought when the Bar
learns “that an attorney has been disciplined for misconduct in another jurisdiction...”
Respondent contends that the term “jurisdiction” in the rule must be limited to jurisdictions in
the United States. He argues that the rule must specifically state that it includes jurisdiction in
foreign countries before reciprocal discipline can be imposed based upon the sanction imposed
by New Zealand.

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 13

We reject this challenge. The plain language of BR 3.5 uses the term “jurisdiction”
without limitation. As such, New Zealand qualifies as a “jurisdiction” under the terms of the
rule. We will not add a limitation to the plain language of the rule that the drafters omitted.
When the Bar has intended to limit the term “jurisdiction” in the RPCs to the United States
alone, it has done so in the past. Compare former RPC 5.5(c) and (d) (“...admitted in another
United States jurisdiction...”) and current RPC 5.5(c) and (d) (“...admitted in another
jurisdiction...”). The Bar submitted a Novemberl9, 2014 letter from Helen M. Hierschbiel,
General Counsel to the Bar, to The Honorable Thomas A. Balmer, Chief Justice of the Oregon
Supreme Court, in which Hierschbiel explained that the change to the term “jurisdiction” without
limitation was meant to include practitioners admitted in jurisdictions outside the United States
within the ambit of the rule.47
Respondent’s argument is also premised on the assertion that disciplinary proceedings are
“quasi criminal” in nature. Disciplinary proceedings in Oregon are defined as “sui generis,”
neither civil nor criminal. BR 1.3. Respondent’s cited cases involving criminal convictions are
not instructive here.
Respondent further argues that ORS Chapter 24 applies here and prevents the imposition
of discipline based on a foreign judgment. Chapter 24, however, applies to money judgments,
not to the imposition of discipline, even through a document titled “judgment.” BR 3.5(b)
authorizes the imposition of reciprocal discipline based upon a “...judgment, order, or
determination of discipline...” from another jurisdiction. This proceeding is expressly allowed.
Respondent’s challenge is without merit.

47 Exhibit 1, Declaration of Courtney C. Dippel in Support ofOSB’s Response to Respondent’s Motion to File an
Amended Answer.

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 14

CONCLUSION
For the foregoing reasons, we conclude that respondent is disbarred in Oregon effective
on the date this decision is final. Respondent was granted due process in the Hew Zealand
proceedings. His conduct would independently merit disbarment in this state. Imposition of
such a sanction is neither a grave injustice nor offensive to public policy.
Dated this ifyday of Apri k 2019.

tvfofk A. Tinner, Adjudicator
Michael Mdd^dth, Attorney Panel Member
Chafles D. Marlin, Public'Panel Member

IN RE CHRISTOPHER SKAGEN - TRIAL PANEL OPINION

Page 15

r:,= _

/

i

IN THE SUPREME COURT
OF THE STATE OF OREGON
In re;

)

) SC S066706
Complaint as to the Conduct of)
)

CHRISTOPHER K. SKAGEN,)
Accused, OSB 911020
) ACCUSED’S OPENING BRIEF
)
Prose
)

Oregon State Bar
18149

)
)
)
)

This brief is filed on behalf of Christopher Knute Skagen.
Oregon State Bar Disciplinaiy Adjudication, Adjudicator Mark A. Turner.
Appellant: Christopher Knute Skagen, pro se OSB #911020,82 Queens
Drive, #12, Lyall Bay,Wellington, New Zealand 6022 Ph; 02041242740.
skagenlaw@gmail.comm
Oregon Bar: Susan Coumoyer, OSB #863381, 16037 Upper Boones Ferry
Road, Tigard, OR 97281-1935, 503-620-0222 x 324, SCoumover@osbar.org

Filed: September 2019

2

/

IN THE SUPREME COURT
OF THE STATE OF OREGON
In re:

)

) SC S066706
Complaint as to the Conduct of )
)

CHRISTOPHER K. SKAGEN,)
) ACCUSED’ S OPENING BRIEF
Accused, OSB 911020
)
Pro se
)

Oregon State Bar
18149

)
)
)
)

INDEX
STATEMENT OF THE CASE
(AI Nature and Relief Sought. 4
(B! Review of Judgment 4
(C) Statutory Appellate Jurisdiction. 5
(D) Entry and Appeal 5
(E) Questions Presented on Appeal. 5
(FI Summary of Arguments. 5
(G) Summary of Facts. 8
INDEX OF AUTHORITIES
Armstrong vManzo 380 US 545, 552 (1965). 47
Attorney Grievance Comm'nofMd. v. Wilde, No. 25749-M (Md.Cir.Ct. Mar.
30,2011). 29

3

Goldberg v Kelley 397 US 254, 269 (1970). 48
Greene v McElroy 360 US 474, 496-97 (1959). 48
Inre Defers,Zl% Or 230, 232,974 P2d 191 (1999). 31
InreSkagen 342 Or 183,149 P3d 1171 (2006). 9
In re Shagen, 22 DB Rptr 292 (2008). 9
In re Wilde, 68 A.3rd 749 (D.C. 2013). 25, 26
Mathews vEldridge 424 US 319,343-345 (1976). 48
Richardson v Perales 402 US 389 (1971). 48
Small v. United States, 544 U.S. 385 (2005). 25, 26, 27
Washington v Gluckberg, 521 US 702,720 (1997). 45
42 U.S.C. § 1983. 43
United States Constitution, Fifth Amendment. 23,30,32,33,39,40,45
United States Constitution, First Amendment. 39
United States Constitution, Fourteenth Amendment.23, 30,32,33,39,40,45
ORS 162.065. 50
ORS 24.370. 24
ORS 9.005(8). 27
ORS 9.542. 27
BR 3.5(a), 24,25, 33,337, 40, 51, 52, 56
BR 1.2. 56
RPC 1.4

4
V '

RPC 5.5 25
RPC 8.1. 3 6
The New Zealand Bill of Rights Act 1990.32, 33, 36, 43
s 40 of the Lawyers and Conveyancers Act 2006 14, 35, 54
Lawyers and Conveyancers Act 2006, Section 7(l)(a)(ii). 32, 33, 36, 48
Lawyers and Conveyancers Act (Disciplinary Tribunal Regulations) , 2008,
Section 33(c). 18, 36,39,46
Crimes Act 1961. 50
Geoffrey Marshall, Due Process in England, in Nomos XVIII, eds J. Roland
Pennock & John W. Chapman, 69-92 (New York: New York University Press)
69.
John D. Orth, Due Process ofLaw: A Brief History (Lawrence, KS: 2003) 3031. 44
STATEMENT OF THE CASE
(A) Nature and Relief Sought.
This is a disciplinary proceeding brought by the Oregon State Bar
seeking reciprocal judgment from the decision by the High Court of New
Zealand which struck Accused off the list of Barristers and Solicitors. The Bar
is seeking disbarment. The Accused is seeking dismissal of that claim, or
appropriate punishment that this Court finds necessary.
iBY Review of Judgment.

■h*

5
The Accused is seeking review of the Trial Opinion of the Oregon State
Bar trial Adjudicator, which was a court trial.
(C) Statutory Appellate Jurisdiction.
The statutory basis ofjurisdiction for die Oregon Supreme Court is Bar
Rule 10.2.
(D) Entry of Opinion and Notice of Appeal. The date of entry of opinion was 10
April, 2019. The Notice of Appeal was served and filed on 7 May, 2019.
tEl Questions Presented on Appeal.
The questions presented on appeal involve:
i) Whether the Bar can ask for a reciprocal lawyer disciplinary judgment
from a foreign country;
ii) Whether the High Court judgment violated due process and the First
and Fourteenth Amendments of the United States Constitution;
iii) Whether the procedure in the jurisdiction which disciplined the
attorney was so lacking in notice or opportunity to be heard as to constitute a
deprivation of due process
iv) Whether the Bar can use facts from overseas discipline to construct
new charges, and whether the combination of comparable Oregon charges rises
to the level of disbarment;

r

6
v) Whether the imposition of a sanction equivalent to the sanction
imposed in New Zealand would result in grave injustice or be offensive to
public policy.
(F) Summary of Arguments.
Assignment of Error 1
‘Jurisdiction’ is not defined in Bar rules, and it is used here for a
reciprocal disciplinary judgment from a foreign country. When seeking
reciprocal disciplinary enforcement it must state “a court of a foreign country.”
Therefore the New Zealand judgment cannot be reciprocated.
Page 24
Assignment of Error 2
The statutory standard of evidence in New Zealand is ‘on the balance of
probabilities.’ This standard is not sufficient to allow a finding in Oregon,
which requires the higher standard of‘clear and convincing evidence.’ The trial
panel erred in stating that such evidence standard was sufficient to uphold a
disciplinary violation in Oregon. It would be violative of due process to enforce
such a judgment in Oregon.
Page 27
Assignment of Error 3
The Accused invoked the substantive due process argument of vagueness
which embodies the definition of misconduct in New Zealand. The statute is

7

/
/

autocratic, subjective and majoritarian, violating the United States and Oregon
constitutional standards of substantive due process.
Page 32
Assignment of Error 4
The tribunal and the High Court used the defenses and factual and legal
arguments in Accused’s pleadings as a means of questioning Accused’s honesty
and inflaming the proceedings, marginalizing and ignoring his evidence. This
was a violation of procedural due process arid a violation of his substantive due
process rights under the First and Fourteenth Amendments of die United States
Constitution.
Page 39
Assignment of Error 5
The Law Society suspended Accused from practice without adequate
notice or hearing by refusing to issue it based on a lien they claimed over it for
court costs. There are no due process procedural rules regarding non-issuance
of a practising certificate. Suspension from practice without notice or hearing is
a violation of his right to due process,
Page 39
Assignment of Error 6
The Accused was unable to appear at the tribunal hearing by audio/video
because they are prohibited by statutory authority at the main hearing and a

«
f

/

defendant must appear in person. He disagreed with material facts. This was a
violation of procedural due process.
Page. 45
Assignment of Error 7
The Accused objected to one member of the tribunal panel, his obj ection
was ignored, and there is no formal procedure in New Zealand for such
objection. This was a violation of procedural due process.
Page. 51
Assignment of Error 8
The Accused refused production of bank statements and the entirety of
client files to the investigator on the basis of client privacy and lawyer/client
privilege. The investigator obtained his personal bank account details without a
court order and stated that clients and lawyers have no rights in an
investigation. This was a violation of procedural due process in that the
investigator obtained privileged and private records without a court order.
Page. 52
Assignment of Error 9
Placing the New Zealand charges in the Oregon context is inappropriate
and a violation of due process, when only two charges were close. This is a
violation of procedural due process.
Page. 56

9

V

(G) Summary of Facts.
1. Accused practiced law in New Zealand as a Barrister, and was a member of
die New Zealand Law Society, admitted to practice in 2002.
2. In 2006 a judgment was entered in the Oregon Supreme Court referred to as
Skagen l,1 which suspended him from the practice of law for one year.
Accused claimed privilege over presenting the entire contents and history of
his trust account, based on privilege. Although the Oregon State Bar
attempted to have findings made against him for dishonesty, that charge was
not successful.
3. In 2006 the New Zealand Law Society succeeded in having reciprocal
charges against the Accused made, and as a result he was censured, and
costs in die amount of NZ$4,100 were awarded.
4. In 2008, the Oregon State Bar succeeded in a disciplinary action against
Accused for Trust Account errors, Skagen 2.2 Charges for dishonesty were
not upheld. Also, as part of that case, he refused to give the Oregon State
Bar copies of his entire trust account. The Oregon State Bar notified him that
they had filed proceedings in Oregon Circuit Court for an Order allowing
production of his trust account records, which he resisted, and the order was

1 In re Skagen 342 Or 183,149 P3d 1171 (2006).
2 In re Skagen, 22 DB Rptr 292 (2008).

10

'N

granted. The trust account information was provided, and depositions were
held for questions about the trust account.
5. In 2007 the New Zealand Law Society brought a disciplinary case against
Accused for the 2006 Oregon 1 case and obtained a judgment for which he
was censured. In 2009 they took action against the Accused and he was
again censured.
6. In 2010 the Accused applied to renew his membership as a Barrister with the
New Zealand Law Society. He made an agreement with the Law Society that
he would make monthly payments on the 2006 costs award.3 He ceased
making payments on the costs award a few months after beginning practice
again.
7. In February 2011 Accused entered into a contract with client E to represent
him in a matrimonial (divorce) proceeding. The contractual agreement
required the client to pay lump sum of $4,100 for half of the entire
proceeding, which was paid.4
8. Accused and client E met at the offices of Kevin Smith, a Barrister and
Solicitor of the High Court of New Zealand. In order for a Barrister to
represent people in New Zealand it is necessary for a Barrister and Solicitor
to appoint, or ‘instruct’ them as legal representative in the proceedings. It is

3 Board File Checklist 22, par. 5.
4 Ex. 40, par. 14.

11
unlawful For a Barrister to maintain a trust account in New Zealand. At that
meeting it was discovered that E’s wife had contacted Kevin Smith to
represent her in the matrimonial proceedings and therefore Mr. Smith was
conflicted out as the ‘Instructing Solicitor.’ Accused informed client that he
would need to find a different Instructing Solicitor.5 Accused left a telephone
message with the client reminding him that he must locate and instructing
solicitor in order for him to act.6
9. Client found a different lawyer who demanded that Accused return the entire
fee, and who later filed a complaint against Accused with the Law Society.7
lO.In April 2011 Accused was sent a letter notifying him of his failure to make
full payments on the Costs Award and demanded full payment.8
11 .In May 2011 Accused entered into a contract to represent client W in a
matrimonial matter for $6,900. Kevin Smith, a Barrister and Solicitor
instructed Accused and Accused communicated extensively with W for the
preparation of a Property Affidavit. The reason why W hired Accused was
because his previous lawyer was unresponsive.9
12.Subsequent to being hired by W, Accused communicated with the client, and
received email communications and Skype communications regarding
5 Ex. 40, par. 20.
6 Ex. 40, par. 45, Ex. 7, par. 7
7 Ex. 40, par. 23.
8 Ex. 101.
9 Ex. 40, par. 52.

12
preparation of his Property Affidavit*10 W stated in his affidavit, which the
prosecutor assisted him in preparing, that Accused had hot communicated
with him or done anything with regard to the Property Affidavit.11
13. Accused appeared at a telephone conference with die Court on 9 June 2011
regarding orders to supply a Property Affidavit by W, and notified the client
of the need to provide discovery. Client stated that there were no further
communications with the Accused.12 The client perjured himself, and the
prosecutor assisted with that perjury.
14. Accused hadcommunicated fully with the client regarding preparation ofa
detailed Properly Affidavit, and prepared a property affidavit for W that he
Could have sworn, but die instructing solicitor refused to file it with the
court13
15 . Accused’s membership with the New Zealand Law Society was due to
expire 30 June, 2011. On June 23,2011, one week before his membership
was to expire, he was notified by the Law Society that in order for his
membership with the Law Society to be renewed, he would have to pay the
entire amount of the Costs Award, because his failure to pay the costs order
made him unfit to be allowed a practising certificate.14
10 Board File Checklist 22, par. 18.
11 Ex. 2, pars. 12 - 14,17.
12 Ex. 40, par. 55.
13 Ex. 40, par. 57, Ex. 7 par. 7.
14 Ex. 102, Board File Checklist 22, par. 8.

13
16; Accused notified them on 29 June, 2011 that he was unable to pay the entire
amount of the Costs Award, and requested that he be allowed to bring
payments current and continue to make payments.15
17.Accused’s practising certificate lapsed on 30 June 2011.16
18. The Fitness for Practice Committee met on 1 July 2011 and decided that
Accused’s explanations were unsatisfactory and requested financial
information in the form of an affidavit by 12 July 2011 showing that he
could pay the entire costs amount17
19. On 15 July 2011, Accused was mailed a letter that referred to a formal
application and that his practising certificate had lapsed. There was no
enclosure included in, or accompanying, the letter.18
20. On 18 July 2011, Accused was emailed an application for renewal that
required receipt and payment by 19 July 2011.19
21.On 19 July 2011, Accused sent an email that notified of his intention to
apply for a practising certificate. 20
22.On 20 July 2011, Accused received an email confirming that a ‘renewal
pack’ was not mailed to him the previous week. The email stated that it was

15 Ex. 103, Board File Checklist 22, par. 9.
16 Exs. 103,104
17 Ex. 104. Board File Checklist 22, par. 11.
18 Ex. 105, Board File Checklist 22, par. 12.
19 Ex. 106, Board File Checklist 22, par. 13.
20 Ex. 107, Board File Checklist 22, par. 14.

14
emailed to him, but the Law Society records revealed no such email, and the
Law Society admitted that it had hot been sent as stated. He received the first
notice at this time for maintaining his practising certificate in a retroactive
manner under s 40 of the Lawyers and Conveyancers Act 2006.21
23.Accused failed to notify W that his Law Society membership had lapsed and
that he would be unable to represent him in court.
24.Although the Accused had prepared a Property Affidavit that he could have
signed, the Instructing Solicitor, Kevin Smith, refused to file the Property
Affidavit22 and appeared by telephone with the Accused, who notified the
Court that he was unable to file the Property Affidavit, and could not
‘appear’ at that hearing because his Law Society membership had lapsed.
The Instructing Solicitor refused to ‘act’ for the client The Court awarded
costs against W and Accused in the amount of $800.23
25. Accused received a letter from the Law Society dated 3 August 2011
declining his application for a practising certificate based on the fact of non­
payment of the costs order which made him ‘disgraceful and
dishonourable,’24 such finding being grounds for discipline in New Zealand.

21 Ex. 108, Board File Checklist 22, par. 15.
22 Ex. 110, Ex. 17, par. 10.
23 Ex. 40, par. 58.
24 Ex. 109.

15

26. On August 29,2011 Accused met with the Law Society investigator twice
and said he would provide all information on the two complaining clients,
but that records of personal bank deposits and client files were protected by
privilege. He had two meetings with tire Law Society investigator, who
demanded that he produce all bank records and all client files for him to
view. Accused stated that he would give the investigator all records of both
clients, but refused to provide all bank records and client files on the basis
that all client bank records mid client files were protected by lawyer/client
privilege.25
27. In October 2011, Accused emailed all client files of E and W to the
investigator.26
28.1n October 2011, Accused met with the investigator again to discuss the
complaints. The investigator placed a sheet before Accused of his personal
bank account records and began asking him about every deposit made into
that account. The investigator informed Accused that he had obtained his
bank records from his bank because he was entitled to do that without a
court order. Again, Accused objected to answering questions about other
clients and deposits into his account, and also objected to the investigator
obtaining his account information without hearing or a court order.27
25 Ex. 40, par. 71.
26 Board File Checklist 22.
27 Ex. 40, par. 71.

16
29. Accused was not informed how the investigator obtained his bank account
information, and whether he had been given authority to investigate ail
matters about both clients.28 He was

.. adamant that neither I nor my

clients had any rights limiting searches by him of bank records, and that his
police powers of search were absolute and untampered by any laws of
restraint or objections of privilege. He stated that there was no privilege
available to lawyers or clients that were the subject of a Law Society
investigation.”29 The issue of the investigator’ s authority was raised with the
High Court on appeal, and was brushed aside.30
30.On June 19,2013,2013 the Standards Committee filed charges against
Accused alleging 12 rule violations relating to two client complaints in
addition to Accused’s failure to fully cooperate with the Standards
Committee.31
31.Recalling that he had changed his email address with the Law Society in
2011,32 Accused waited until he was contacted at that email address,
promptly responded and accepted service by email.33

28 Ex. 17, par, 17.
29 Ex. 17, pars. 19-20.
30 Ex. 40, pars. 80-81.
31 Ex. 40, par. 7.
32 Ex. 17, par. 25.
33 Ex. 40, par. 8.

17
32.1n an email to the Standards Committee case officer dated 14 October 2013 ,
Accused stated ‘‘having reviewed the panel, I would object to the inclusion
of Wayne Chapman as a member, as his presence would make me
uncomfortable. w34 M ... I learned that he had been disciplined and had since
taken it upon himself to campaign vigorously and unreasonably against any
lawyer accused of disciplinary violations.”35 There was no response to that
objection and it was not further pursued.
33.On November 6,2013 Accused filed responses to the charges with an
affidavit reciting facts in support of his denials.36
34.On January 31,2014, the Tribunal held a conference call with the parties to
discuss the case.37 Accused stated that he was unable to attend the hearing in
person because he could not afford to travel to New Zealand.38 He also
requested that the hearing take place by telephone, which was refused. The
prosecution suggested that the hearing take place on the papers. Accused
was uncertain whether there were evidential issues. It can request witnesses
be called, but it did not The Accused filed an affidavit in the High Court
regarding this meeting and disagreements about evidence and the law were
both raised at that meeting.
34 Ex. 40, par. 9.
35 Ex. 17, par. 26.
36 Ex. 40 par. 9, Ex. 6.
37 Ex 35, 36,37,39
38 Ex. 39

18
35.His application to be present was denied because a person must, according to
the rules, be physically present at the substantive hearing.39
36.1n February, 2014 Accused had an aortic aneurysm, which the doctor stated
could be operable, but that it would probably kill him, so he chose to leave
the aneurysm in place. A friend allowed him to stay in his home for 4
months while he was healing.40 In June, 2014, Accused had another aortic
aneurysm that was bleeding and required open chest surgery. His stepson
housed him to heal and he later spent 2 weeks with a cousin. In late July he
returned to the homeless shelter.41 Accused’s Oregon physician, Elis
Madrigal MD, swore an affidavit and related the two aortic aneurysm
events.42
37.The prosecution stated in its ‘Submissions’43 regarding E that Accused was
disingenuous and dishonest, and that his actions were disgraceful and

39 Lawyers and Conveyancers Act (Disciplinary Tribunal
Regulations), 2008, Section 33(c):
Sittings of Disciplinary Tribunal using telephone conference or video link. The
chairperson may at any time convene a sitting of the Disciplinary Tribunal by
telephone conference or video link for all or any of the following purposes:
(c) to consider any other matters involved in an inquiry or
hearing, other than the substantive hearing of charges or other
proceedings:
40 Ex. 40, par. 10.
41 Ex. 17, pars. 30-32.
42 Ex. 18, Affidavit Madrigal.
43 Ex. 8 par. 25.

19
dishonourable. Accused was not charged with being disingenuous and
dishonest The prosecution alleged that Accused had done no work for W,
and that it bordered

. .on cynical and dishonest offending. ..,»44

38.1n their judgment, the panel found that Accused’s ‘position’ with regard to E
was ‘disingenuous and dishonest’ and ‘dishonourable and disgraceful,’
agreeing with the prosecution’s submissions.45
39.The panel also agreed with prosecution’s dishonesty submissions regarding
W, stating that he had behaved in a similar manner.46
40. Accused discovered a retirement account that had built up over the years
which could be accessed if a person was disabled, cashed it in and travelled
back to New Zealand.47
41 .After his return to New Zealand, Accused filed an appeal in the New
Zealand High Court against the decision of the tribunal on January, 2015.48
It was necessary for him to travel back to New Zealand in order to appeal,
because his case had to be heard in person.
42. An Application for Security for Costs was filed by the Law Society, which
was granted.49 If there is doubt that a person cannot afford to pay a ‘costs

44

Ex. 8 par. 29.
45 Ex. 10, par. 18.
46 Ex. 10, par. 32.
47 Ex. 12, par. 4.
48 Ex. 11.
49 Ex 12.

20

order’ (which is opposing lawyer fees awarded ifthey succeed), then the
court can require a person post ‘security for costs’ in order to continue the
litigation, or it will be dismissed.
43.Accused applied to file an affidavit50 containing further information, which
was granted.
44. Accused filed an Application to Recall Judgment. In response, a hearing was
held and the final judgment was issued on December 16,2016. The reason
for the application involved five issues that Judge Mallon had not considered
in her previous judgment: his actions were lawful under contract law, the
defense of privilege to the investigators demands was lawful, the Standards
Committee had breached the law and were liable for damages, that his right
to natural justice was breached in relation to sentencing, and that there were
evidentiary issues.51
45.The High Court upheld the findings of the Disciplinary Tribunal, but did not
allow costs against the Accused.52
46.The Accused decided that to further appeal the High Court proceedings
could kill him because of his remaining aortic aneurysm. His aneuiysm was
surgically repaired internally by a graft successfully in 2018. Before surgery
Accused decided that if he survived surgery he would file an Application for
50 Ex 17.
51 Ex 1 par. 2.
52 Ex 40.

21

... with the New Zealand Court of Appels. Approximately two weeks after
surgery he was served papers for reciprocal disbarment by the Oregon State
Bar.53
47.Prior to the Bar hearing the Accused discovered an email sent to the Law
Society investigator in 2011 which included several items proving that he
had done a significant amount of work for W and that he had prepared a
Property Affidavit based on significant communications with the client by
email and using Skype.54
48.The affidavit of W55 stated that Accused had not communicated with the
client about the Property Affidavit, and had not worked on his case, except
for a conference with the Court.
49. At the Bar hearing, the witness, Timothy MacKenzie, prosecuting lawyer,
stated that he assisted W in preparing his Affidavit for Hearing, and admitted
having viewed all of the evidence in possession of the investigator. He also
stated that he had viewed the email and its accompanying exhibits that had
been sent to, and received by the investigator.56

53 Board File Checklist, 22.
54 Board File Checklist 22, par. 18.
55 Ex. 2. Affidavit W.
56 Transcript pages 109-111

22

50.Mr MacKenzie, in his Submissions to the Tribunal, alleged that the facts
were the same surrounding E and W, that the Accused had treated both
clients in the same fashion, and that, like E, he had done no work for W.
51.Mr. MacKenzie also alleged that Accused’s pleadings, in stating he had done
no work for W, was disingenuous, and that Accused’s statements bordered
on being dishonest.57
52.The Tribunal accepted the submissions of Mr. MacKenzie in their entirety,
and stated, “We agree with counsel’s submission that it borders on cynical
and intentional dishonesty that Mr. Skagen, having concluded his conduct in
respect of Mr. Edmeades, went on to behave in a similar manner towards
Mr. Wolyetang.”58 which reflected his submissions almost exactly.
53. Subsequent to the Bar hearing, Accused filed a Motion to Amend Answer
which was ignored by the Bar and the adjudicator.59
of the case material to determination of the appeal. The summary shall be in
narrative form with references to the places in the transcript, narrative
statement, audio record, record, or excerpt where such facts appear.
(11) A Motion to Abate was filed in this appeal, which was denied, and the
Accused was instructed to refile it if his disciplinary case was reopened in New
Zealand.
57 Ex. 8, Par. 9.
58 Ex. 10, par. 32.
59 Board File Checklist 25.

23

(12) Respondent’s Exhibits 101 - 110, marked and introduced at trial, do not
appear to have yet made it into the record.
INTRODUCTION
This is the first reciprocal disciplinary case in the United States of its
kind. There was one other case, which was dismissed because it involved a
criminal conviction from a foreign country. New Zealand’s legal principles and
modes of practice, while similar, display subtle yet remarkable differences, and
there are also important factual, legal and procedural elements extant
Throughout this process the Accused has disputed the facts as stated by
the prosecution. The reason is that partiality is a subtle yet powerful influence
reflected in decision making. An even greater reason is that in Bar proceedings
the truthfulness of the accused is usually questioned and they are charged with
dishonesty, as the Accused has in two prior Bar proceedings and these New
Zealand proceedings. Bar proceedings are an inflammatory process which
question the honor of the accused.
The Accused is a man who adheres to the freedoms contained in the
United States Constitution and the New Zealand Bill ofRights Act 1990, and he
has maintained a position of privacy towards his client information because that
is what he is paid to maintain for the rest of his life . His disciplinary history
reflects that position with consistency and he has paid a heavy price; freedom
from investigations desiring to turn his practice upside down in violation of his

24

rights of privacy and the rights of his clients in order to see what violations they
can uncover*
1. FIRST ASSIGNMENT OF ERROR
Procedure for recognition of a foreign-country judgement is governed by
ORS 24.370.60 Under subsection (1) the Bar has filed an original action, and in
subsection (2) the Accused has raised as an affirmative defense. In order for a
judgment to be enforced, the originating statute must state must not just state
‘judgment,’ as inBR3.5(a), but it must state ‘and a court of a foreign country.’
Therefore the judgment from New Zealand cannot be enforced reciprocally.
(A) Preservation of Error. Amended Answer (Board File Checklist 21), page 5,
Affirmative Defenses 1 and 3, such pleading being in compliance with
ORS 24.370 (2). The Adjudicator stated that a letter from Bar Counsel to
Chief Justice Thomas A. Balmer in 2014 resolves the issue, stating:
“The Bar submitted a November 19,2014 letter from Helen M.
Hierschbiel, General Counsel to the Bar, to The Honorable Thomas
A Balmer, Chief Justice of the Oregon Supreme Court, in which
Hierschbiel explained that the change to the term “jurisdiction

60 ORS 24.370. Procedure for recognition of a foreign-country judgment.
(1) If recognition of a foreign-country judgment is sought as an
original matter, the issue of recognition shall be raised by filing an action
seeking recognition of the foreign-country judgment.
(2) If recognition of a foreign-country judgment is sought in a pending
action, the issue of recognition may be raised by counterclaim, cross-claim or
affirmative defense.

25
without limitation was meant to include practitioners admitted in
jurisdictions outside die United States within the ambit of the rule.”61
The letter does not address foreign country discipliaaiy judgments or
reciprocal disciplinary prosecution. Neither BR 3.5 (a), nor RPC 5.5
define jurisdiction or include a judgment from a foreign country
jurisdiction, or meet the requirement of Small v. United States, 544 U.S
385 (2005); cf In re Wilde, 68 A.3rd 749 (D.C. 2013).
RPC does not contain a definition ofjurisdiction. RPC 5.5 contains no
reference to foreign jurisdictions, except as an addendum it compares the
old version with: “Amended 02/XX/15: Phrase “United States” deleted
from paragraphs (c) and (d), to allow foreign-licensed lawyers to engage
in temporary practice as provided in the rule.”
(B) Standard of Review. De novo. ORS 24.370, BR 3.5 (c) (e).
Argument
A New Zealand judgment for lawyer discipline is invalid in Oregon
because, for reciprocal judgments, jurisdiction is not defined as ‘jurisdiction of
a foreign country/ There are cases in the United States

that look at the

construction of the originating statute and whether it was intended to apply to
judgments of a foreign country. Although the cases deal with criminal
61 Post trial Exhibit 1 Declaration of Courtney C. Dippel in Support
ofOSB -s Response to Respondent’s Motion to File an Amended Answer. Listed
in RTB as #24.

26

judgments outside of the United States, and in a foreign country, it is submitted
that lawyer disciplinary proceedings of a foreign country, being sui generis in
nature as applied in the United States, bring characteristics of criminal
convictions in the same manner that criminal convictions in Oregon can result
in disbarment The Accused was disbarred in a foreign country.
One case relied upon was Small v. United States, 544 U.S. 385 (2005). It
involved charges with Federal firearms offenses, and turned on interpretation of
‘any’ court. It sought reciprocal conviction in the United States for conviction
of firearms offenses in Japan. The Supreme Court held that if Congress had
intended to include overseas jurisdictions, then it would have used the language
“and a court of a foreign country.”
The Adjudicator’s arguments are not sufficient to overcome the judgment
in Small The language in the Bar Rules is simply ‘judgment,’ and this does not
contain the required words “and a court of a foreign country,” so therefore it
does not comply with that requirement. Contextually the purpose of these
regulations are entirely different. BR 3.5(a) is for out of state discipline and
RPC 5.5 is for a lawyer to appear in an Oregon court. RPC do not include
jurisdiction in ‘definitions,’ nor is there any reference to jurisdiction in any of
the other ‘disciplinaiy’ definitions.
In re Wilde, 68 A.3rd 749 (D.C. 2013) was a disciplinary case that sought
immediate suspension of a lawyer for a criminal conviction in South Korea. It

27

followed the same analysis as that used in Small to infer that if the disciplinaiy
language had specified ‘judgment of a foreign country,’then it would apply.
The court considered Small important in its considerations because the D.C.
statute did not include in its language ‘courts of a foreign country.’
The plain meaning of ‘jurisdiction’ is intended to refer to State and
Federal jurisdictions, but not the expansive rule covering jurisdictions over the
entire planet RPC 7.2, Authority. “These “Rules of Procedure” are adopted by
the Board and approved by the Supreme Court pursuant to ORS 9.005(8) and
ORS 9.542, and govern exclusively the proceedings contemplated in these rules
except to the extent that specific reference is made herein to other rules or
statutes.” There is no specific reference made to any New Zealand rules or
statutes, and because any disciplinary judgment made in New Zealand is based
on its own rules and statutes, New Zealand discipline cannot be considered
under the Oregon rules. If the Bar Rules of Procedure had meant to include the
jurisdiction of a foreign country, then it would have stated it clearly.
2. SECOND ASSIGNMENT OF ERROR
The statutory standard of evidence in New Zealand is ‘on the balance of
probabilities.’ This standard is not sufficient to allow a finding in Oregon,
which requires the higher standard of ‘clear and convincing evidence.’ The trial
panel erred in stating that such evidence standard was sufficient to uphold a
disciplinary violation in Oregon.

28
A. Preservation of Error. The Accused preserved this error as an Affirmative
Defense in his Amended Answer at paragraph 10, (Board File Checklist
21). He also argued this in Respondent’s Hearing Memorandum at pages
11-13, (Board File Checklist 23).The Adjudicator stated in footnote 20 on
page 5 of his opinion regarding ‘the balance of probabilities:
“Respondent mentioned, without elaboration, possible due process
concerns resulting from and evidentiary standard in New Zealand
that is less than our clear and convincing standard. This issue is
irrelevant here, however, since there were no disputed issues of
fact where the standard of proof would come into play .”
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of the lower standard of evidence. Bar
Rule 3.5(e).
Argument
The standard of evidence in New Zealand disciplinary matters is ‘on the
balance of probabilities.’
The standard of evidence required to pass judgment on a lawyer in New
Zealand is ‘on the balance of probabilities,’ pursuant to Section 241 of the Law
Practitioners Act 2006, whereas the standard of evidence in Oregon disciplinary
proceedings, which are considered sui generis, is ‘clear and convincing
evidence.’ In all of the cases involving ‘clear and convincing evidence,’ it is
required that the prosecution not just make an inference, but that the lawyer
knowingly and deliberately violated a rule without justification. Throughout,

29
Accused has alleged privilege as his basis and justification for refusing to
divulge client information, based on arguable reasoning, and the legal fact that
it is his belief that the Law Society was required to obtain a court order, and that
client bank deposits and especially client files (which the investigator stated that
he wanted to see by having the Accused answer questions about bank deposits)
were outside of the j urisdiction of the investigator because Accused was a
banister using his personal account, and the investigator was using client
deposits to look at a client’s entire file.
When using the ‘balance of probabilities’ test it may be acceptable to
make inferences regarding the AcCused - s state of mind, but throughout, with
this charge and the others, he maintained defenses around interpretation of the
statutory authority that were substantially ignored.
In Attorney Grievance Comm’nofMd. v. Wilde, No. 25749-M
(Md.Cir.Ct. Mar. 30,2011), the Maryland court did not recognize the foreign
country judgment, but instead found that the Bar had not proved criminal
behavior of the lawyer “by clear and convincing evidence.” That court did not
advance to consider the judgment itself. This case is significant because in a
criminal case the test is ‘beyond a reasonable doubt,’ and South Korea does not
use such an evidentiary test in criminal matters.
To accept the lower standard of evidence in Oregon inflates the
proceeding in a foreign country to a rehearing in Oregon of the original matter,

30

in that it applies a radically different evidentiary standard to matters sought to
be accepted as proven in a jurisdiction that possesses lesser standards of
evidence. In addition to asking this court to accept a foreign country judgment
based on a lesser standard of evidence, the Bar is seeking acceptance of their
own charges, which are dissimilar, and it is asking the court to shoehorn the
foreign facts into a plethora of Oregon charges, picking and choosing alleged
fact from a foreign jurisdiction with radically different rules and procedures
regarding lawyer discipline.
Burden of Proof- Procedural Due Process
Oregon rule 3.5(e) places the burden of proof on the Accused to show
that due process was not followed in the other jurisdiction. “3(e) Burden of
Proof. The attorney has the burden of proving in any hearing held pursuant to
BR 3.5(e) that due process of law was not afforded the attorney in the other
jurisdiction.” Disciplinary decisions in Oregon have not ruled on the issue of
what the burden of proof is regarding whether an attorney m the other
jurisdiction was afforded due process. The prosecution’s burden for proving
charges is ‘clear and convincing evidence.’ The issue is whether there is a
recognizable standard of due process in the other jurisdiction, and if there was,
what is the standard of evidence required to show that it was not followed, or
that there was a recognizable standard.

31
The standard is not according to New Zealand standards, but Oregon
standards. “... the essential elements of due process are notice and an
opportunity to be heard and to defend in an orderly proceeding adapted to the
nature ofthe case before a tribunal having jurisdiction of the cause.” In re
Devers, 328 Or 230,232,974 P2d 191 (1999) (emphasis added).” Given the
differences in disciplinary statutes and rules between Oregon and New Zealand,
and the arguments contained herein, the New Zealand matter was disorderly,
and cannot be adapted to the nature of this case.
The Accused’s disputes over evidence in affidavits and in submissions
provides a revelatory view of evidence treated under the opposing test of‘on
the balance of probabilities.’ The difference to the result is remarkably
different, especially when viewed in hindsight over important evidence disputed
by the Accused. This difference is magnified by how the tribunal and the High
Court treated his pleadings, labelling them as disingenuous, dishonest,
disgraceful and dishonourable. This is magnified when the accused is unable to
attend a hearing, cannot cross-examine witnesses, and has new charges of
arrogance, cynicism, disingenuousness and dishonesty brought without notice
of charge and an opportunity to be heard. The hurdle of proof was compounded
in the Accused’s disfavor. The Accused asks what level of notice and
orderliness is required, based on a view of accepting the New Zealand decisions
in their entirety as an estoppel against his due process arguments.

32

The Accused had questions of most of the witnesses, in particular client
W, who he knew had constructed a pequred affidavit with the assistance of the
prosecutor, but his evidence was chosen over that of the Accused to show that
Accused was disingenuous and dishonest in his pleadings.
Even if the question of the standard of proof required of a due process
violation is ‘clear and convincing,’ then that standard has been exceeded with
the profusion of legal and factual due process violations viewed from Oregon
and Federal standards.
3. THIRD ASSIGNMENT OF ERROR.
The Accused invoked the substantive due process argument of vagueness
which embodies the definition of misconduct in New Zealand. The statute, The
Lawyers and Conveyancers Act 2006, Section 7(lXa)(ii) definition of
misconduct, is autocratic, subjective and majoritarian, violating the United
States and Oregon constitutional standards of substantive due process.
(A) Preservation of Record. The Accused preserved the record in his Amended
Answer (Board File Checklist 21) at f) iii) (Affirmative Defenses) where
he stated:
“New Zealand disciplinary laws contain expansive, and vague, laws
allowing violation of due process standards when viewed from
United States and Oregon standards.”
It is also located on pages 8 - 9, # 14 - 16 and on page 6, number 4 of the
Affirmative Defenses of the Amended Answer in part:

33

“Allowing a judgment from New Zealand for misconduct that is
based on a vague law would be a violation of the Respondent’ s right
to due process and opportunity to be heard.”
The Accused preserved the record in Respondent’s Hearing
Memorandum, pages 5-6. (Board File Checklist 23), stating on page 5 that:
“The Lawyers and Conveyancers Act 2006, defines misconduct, in
part, in Section 7(l)(a)(ii) as, “that would reasonably be regarded by
lawyers of good standing as disgraceful or dishonourable.”
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of violations of substantive due process.
Bar Rule 3.5(e).
Argument
The New Zealand meaning of ‘misconduct’ is unlimited in its description
of human behavior, creating a vague and uncertain legal environment, allowing
a disciplinary body to prosecute on a whim for anything that they decide.
Allowing a judgment from New Zealand for misconduct that is based on a
vague law would be a violation of the Accused’s right to due process and
opportunity to be heard. The Lawyers and Conveyancers Act 2006, defines
misconduct, in part, in Section 7(1 )(a)(ii) as, “that would reasonably be
regarded by lawyers of good standing as disgraceful or dishonourable.” This is
an example of majoritarian enactments that exceed the limits of governmental
authority, and its surrounding provisions are also replete with vagueness. It

34

cannot be enforced. A lawyer is a voice that embraces freedom of speech, or the
First Amendment, arid the right to practice law is a fundamental right. This law
represents a compelling state interest, but must be narrowly tailored to represent
that interest. These laws are prohibited in the United States, and the Bar is
seeking enforcement of this law.
A case in New Zealand decided that the actions of the Accused before its
decision were prohibited. The Law Society decided to punish the actions of
Accused retroactively.
Charges may be brought under Section 241 of the Act Section 242
allows for any orders to be made. The Law Society found that Accused’s failure
to pay a costs bill was disgraceful and dishonourable, and yet they were
violating New Zealand law by demanding foil payment of the Costs Order,
which was a property lien on his property right to practice law, which is illegal
in New Zealand and in Oregon.
The Lawyers and Conveyancers Act (Lawyers: Conduct and Client Care)
Rules 2008 extensively deal with the New Zealand equivalent of the Oregon
ethical rules, are contained in the Schedule, which, in its preface, states a broad
and vague addendum to the meaning of misconduct.62 The plain meaning of

62 "The rules are not an exhaustive statement of the conduct expected of
lawyers. They set the minimum standards that lawyers must observe and are a
reference point for discipline. A charge of misconduct or unsatisfactory conduct
may be brought and a conviction may be obtained despite the charge not being

35

misconduct is so expansive and vague that it violates the principles of
substantive due process. As argued below, such use is autocratic, entirely
subjective and majoritarian, relying on a select few lawyers to make the law. In
other words, misconduct can be based on anything the disciplinary tribunal
wants, regardless of whether there is a rule, and the Law Society can make up
the rules as they go along, and construct new charges and issue judgment
without due process, which is what happened in this case. The rules are vague
and entitle the Law Society to prosecute a lawyer under any imaginable
circumstance.
Section 152 of the Lawyers and Conveyancers Act 2006 requires notice
of a disciplinary charge to a lawyer. Section 158 requires notice of the
determination. Part 7 of the Act includes Sections 120 to 272 outlining the
powers of the tribunal. The New Zealand Bill ofRights Act 1990 advocates due
process. This state of due process in New Zealand violated Accused’s right to
due process and opportunity to be heard. Use of the New Zealand standards of
due process in the United States or Oregon would be a violation of the
Accused’s right to due process and opportunity to be heard.

based on a breach of any specific rule, nor on a breach of some other rule or
regulation made under die Act”

36
Due Process remains undefined in die New Zealand Bill ofRights Act.
1990, requiring notice and hearing. The appropriate measure of due process is
that contained in the Law Society rules, whether notice and hearing according
to Oregon standards is contained therein, and also whether die New Zealand
proceedings complied with United States and Oregon standards of due process.
Section 250 allows making their own hearing rules, and Section 252
allows its own procedures. The procedures are contained in Lawyers and
Conveyancers Act (Disciplinary Tribunal) Regulations 2008.
A tribunal at hearing can at any time by its own motion amend or add to
charges without notice.63 The tribunal hearing should have been adjourned
because it surprised the Accused and ‘prejudiced the conduct of the case’ in that
it changed the evidentiary balance by marginalizing, and hence reducing his
credibility by alleging dishonesty in him raising defenses and using acceptable
legal rationale by way of explanation.64 They found that Accused was
‘Cynical,’ disingenuous and ‘dishonest.’ They used their ability to expand or
63 24 Amendment of or addition to charge
(1) At the hearing of a charge, the Disciplinary Tribunal may of its own
motion or on the application of any party, amend or add to the charge if
the Tribunal considers it appropriate to do so.
64 24 (2) The Disciplinary Tribunal must adjourn the hearing if it considers that
the amendment or addition would—
(a) take the person charged by surprise; or
(b) prejudice the conduct of the case.

37

add to charges and did it without notice or a hearing, which is their right They
had the right to dispense with requirements of due process at the hearing, and
they did exactly that, but they should have adjourned the hearing. The Accused
was not present to request an adjournment.
4. FOURTH ASSIGNMENT OF ERROR
The tribunal and the High Court used the defenses and factual and legal
arguments in Accused’s pleadings as a means of questioning Accused’s honesty
and inflaming the proceedings. Accused’s honesty and integrity were criticized,
and his evidence was marginalized and ignored. This Was a violation of
procedural due process and a violation of his substantive due process rights
under the First and Fourteenth Amendments of the United States constitution.
(A) Preservation of Error. Amended Answer (Board File Checklist 21), pages 89 and Affirmative Defenses 14 * 16. Hearing Memorandum (Board File
Checklist 23) pages 16-17, paragraphs 13 and 14. This was raised as
Affirmative Defense 16, and pursued under BR 3.5(a), (b) and (c).
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of violations of substantive due process.
Bar Rule 3.5 (c) and (e).
Argument

38
The disciplinary Tribunal found that Accused’s defense prior to, and in
the proceedings were ‘arrogance^ > i cynical,’ ‘disingenuous,’ and ‘dishonest,’
saying it “borders on cynical and intentional dishonesty” and “We have referred
to practitioner’s cynical and dishonest conduct, which was sustained. We have
also had regard to the practitioner’s arrogance in response to the investigation.”
The High Court did not repeat the word ‘arrogance. ’
The Accused was defending his actions on factual and legal bases as a
lawyer is required to defend their client interests. He was punished for speech in
that the legal arguments he applied to his case in connection with his factual
statements formed a new charge. The defense was respectful and did not reach
any stated level needed for the tribunal or High Court to consider charges that
are the equivalent of contempt. Viewed from United States and Oregon
standards of due process, such findings were a violation of the Accused’ s right
to due process and an opportunity to be heard. Although he was not charged
with dishonesty, they in effect created a new charge (which they are entitled to
do) and found him guilty without charge or hearing on that matter. These were
due process violations of Free speech under the First, and Fourteenth
Amendments of the United States Constitution. Thus far, the Accused has been
unable to find any case law on restriction of speech in court or in pleadings,
probably because lawyers in the United States are protected from prosecution
with courtroom speech and their pleadings.

39

Contempt Charge. First Amendment.
As his own advocate at his trial, the tribunal judged his presentation of
defenses as arrogant, dishonest and cynical. A fundamental principle of defense
is the freedom to use any defenses, argue fully, and present it with decorum. To
raise die Accused’s defense to a level approaching contempt (cite Oregon rules
of contempt), with Its ability to lay new charges without notice or an
opportunity to be heard, and without an ability to present sentencing arguments,
is a violation of the First and Fourteenth Amendments in violation of his due
process rights and an opportunity to be heard. Section 24 of the Lawyers and
Conveyancers Act (Disciplinary Tribunal) Regulations 2008 allows amendment
or addition to charges at hearing without notice.
The investigator, apparently with his authority as an officer of the court,
(the Accused questioned the breadth of the investigator’s appointment) issued
an order that Accused produce information to him regarding his client files and
bank records. The Accused refused and was prosecuted on the basis that there
were no defenses to his refusal to follow this order..
5. FIFTH ASSIGNMENT OF ERROR
The Law Society suspended Accused from practice without adequate
notice or hearing by refusing to issue it based on a lien they claimed over it for
court costs. There are no due process procedural rules regarding non-issuance

40

of a practising certificate. Suspension from practice without notice or hearing is
a violation of his right to due process.
(A) Preservation of Error. The Amended Answer, (Board File Checklist 21)
contains an Affirmative Defense # 6 at pages 6-7, (p. 6 subject to motion)
stating in part:
“Respondent’s right to due process before suspension of his
practising certificate was denied. By refusing to issue a practising
certificate without proper notice and s hearing, damage was caused
to a client, and Respondent was unable to continue the performance
of a contract of services.”
Accused also argued this error in his Hearing Memorandum (Board File
checklist) 23 at

pages 7-9.

A) Preservation of Record. The Accused preserved the record in his Amended
Answer (Board File Checklist 21), pages as Affirmative Defense and in
Respondent’s Hearing Memorandum (Board File Checklist 23), pages 79.
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of violations of substantive due process.
Bar Rule 3.5(e).
Argument
The Law Society suspended Accused from practice without adequate
notice or a hearing. This resulted in his inability to appear for W and resulted in
several alleged disciplinary violations. This was a violation of due process. The

41
High Court bifurcated facts surrounding his nonrenewal as a defense to charges
from the resulting facts, which was also a violation of due process.
The Law Society can refuse issuance of a practising certificate without
due process. There are no due process rules requiring notice and hearing prior
to refusal of a lawyers Practising Certificate. The Accused was notified on April
1,2011 that, due to non-payment on the agreed terms, the entire amount of a
costs order was due. On 23 June, 2011, one week before his Law Society
membership was due for renewal, the Accused was notified that his practising
certificate would not be renewed unless he paid the full amount of the costs
order demanded. The Accused was not sent a renewal notice until after his
practising certificate had lapsed. The Accused objected that he had not been
given fair notice, and that before suspending his right to practice law, he was
entitled to a hearing. The details of due process over the Accused’s property
interest are contained in Exhibits 101-109. The Accused had a property interest
in maintaining his practising certificate, and his property interest in the practice
of law was suspended without notice or opportunity to be heard. Accused’s
right to due process before suspension of his practising certificate was denied.
By refusing to issue a practising certificate without proper notice and a hearing,
damage was caused to a client, and Accused was unable to continue the
performance of a contract of services. Accused was unable to repay the

42

unearned portion of both client’s fees because he was unable to maintain and
pursue his property interest in being a. lawyer.
There is no requirement for the Law Society to give adequate notice and
a proper hearing before deciding to refuse a lawyer’s property interestin his
ability to practice law. The Accused’s Practising Certificate was not renewed
due to failure to pay a costs Order from a New Zealand Disciplinary Tribunal
(Law Society 1) that was a result of Skagen 1. The courts did not view
suspension of the practising certificate as a disciplinary proceeding, but a
decision was made to suspend Accused from the practice of law immediately
prior to injury of the complaining client W, who was injured as a direct result of
the nonrenewal. The High Court chose not consider the Accused’s arguments
and claims over due process violation of failure to renew his Practising
Certificate. They bifurcated the intimately intertwined factual issues in his
disfavour.
As a result of this he was unable to represent a client to file a property
affidavit in a divorce matter. He had prepared an affidavit that could have been
filed to prevent the costs order against the client, but the Instructing Solicitor
refused to allow its filing and service on opposing counsel. The solicitor
appeared at the hearing with the Accused present, explaining why the failure
had happened.

43

The Accused spent 3 weeks attempting to renew membership and had a
Property Affidavit prepared. Theoretically, this Would not have happened in
Oregon. It would have been a simple matter of renewing membership and then
dealing with one disciplinary matter.
The Accused brought a claim for violation of this due process right
(among other rights) against the Law Society, which is permitted in New
Zealand, in his Second Notice of Appeal, without objection. It is comparable to
42 U.S.C. § 1983 claim in the United States.
New Zealand Due Process
Due process in New Zealand did not exist until the enactment of
New Zealand Bill ofRights Act 1990. A year after Accused graduated from
Auckland University School of Law in 1976, an English author recounted the
absence of due process in English law.65 As a child of Great Britain, New
Zealand substantially inherited its laws, and its belief in parliamentary
supremacy, which is reflected in the present New Zealand statute, which does
not allow a court to overrule law that denies due process. The introduction of
due process by statute in 1990 changed New Zealand law. This case evidences
the reluctance of the New Zealand judiciary to formally embrace due process.

65 Geoffrey Marshall, Due Process in England^ in Nomos XVIII,
eds J. Roland Pennock & John W. Chapman, 69-92 (New
York: New York University Press) 69.

44

There is a comparable, but different legal creature inherited, used by the
Accused in the New Zealand proceedings, which is called ‘natural justice,’ and
is used in administrative procedures.
Evidence suggests that after the Nineteenth Century the American
concepts of due process and the British system of parliamentary supremacy
diverged radically. It is said, “.. . the great phrases failed to retain their
vitality”,66 such attribution being the rise of parliamentary supremacy and
hostility to judicial review as an undemocratic foreign invention.67 This hostility
towards due process is mirrored in the actions and judgments of the tribunal and
the High Court
Despite due process (and other alleged violations, including
discrimination against a United States national) being argued through the New
Zealand Bill ofRights Act 1990, it received virtually no consideration. Most
judges now sitting in New Zealand received no compulsory constitutional law
education, and certainly nothing comparable to the requirements for United
States lawyers. Constitutional law as Americans understand it does not hover
over the entire process of law making and litigation. It is this environment
which surrounded prosecution of the Accused, and which is why the facts and

66 John D. Orth, Due Process ofLaw: A BriefHistory (Lawrence,
KS: 2003) 30-31.
67 Orth, 29.

45
law surrounding his case might seem alien in a New Zealand court and by its
necessary extension, to this Court.
Washington v Gluckberg, 521 US 702, 720 (1997) is instructive in these
proceedings, as they substantially involve issues pertaining to violation of the
United S tates Constitution, and interpretation of the constitutional safeguards
presently afforded to an Oregon lawyer who was once also a New Zealand
barrister and living in the New Zealand constitutional environment:
“By extending constitutional protection to an asserted right or liberty
interest, we, to a great extent, place the matter outside the arena of public
debate and legislative action. We must therefore exercise the utmost care
whenever we are asked to break new ground in this field.”
The constitutional issues presented in these proceedings were noted and
addressed in New Zealand. This case breaks new ground.
5. SIXTH ASSIGNMENT OF ERROR
The Accused was unable to appear at the tribunal hearing by audio/video
because they are prohibited at a hearing and a defendant is required to appear in
person. He could not subpoena witnesses, nor are witnesses called for hearing.
He was unable to confront and cross-examine witnesses. This was a violation of
procedural due process. He disagreed on substantial issues of fact throughout
proceedings. One witness perjured himself with the assistance of the prosecutor,
which was proven by testimony of that prosecutor at the Bar hearing.

46
(A) Preservation of Error The Amended Answer (Board File Checklist 21),
page 8, #7 states:
“New Zealand disciplinary regulations do not allow appearance at a
hearing by telephone or video, which is a violation of due process
and an opportunity to be heard. Section 33(c) of the Lawyers and
Conveyancers Act (Disciplinary Tribunal) Regulations 2008 does
not allow telephone or video at substantive hearings.”
The Hearing Memorandum (Board File Checklist 23) argued this at pages
10-11.
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of violations of substantive due process.
Bar Rule 3.5(e).
Argument
New Zealand disciplinary regulations do not allow appearance at a
hearing by telephone or video, which is a violation of due process and an
opportunity to be heard. Section 33(c) of the Lawyers and Conveyancers Act
(Disciplinary Tribunal) Regulations 2008 does not allow telephone or video at
substantive disciplinary hearings. A substantive hearing does not allow
telephone or video,68 which was requested by Accused and declined.
68

33 Sittings of Disciplinary Tribunal using telephone conference or video link
The chairperson may at any time convene a sitting of the Disciplinary
Tribunal by telephone conference or video link for all or any of the
following purposes:
(a) to consider (whether on the application of the party that laid the
charge or of its own motion) the making of an interim order of
suspension of a practitioner from practice under section 245 of the Act:

47

The notice and the hearing must “must be granted at a meaningful time
and in a meaningful manner.” Armstrong v Manzo 380 US 545,552 (1965)- The
hearing was not granted in a meaningful manner. There were factual disputes
over one client affidavit, and those disputes centered around whether Accused
had done work on the client matter. Client W perjured himself with the
knowing assistance of the prosecution.
The hearing was held in the absence of Accused, on the papers,
prosecuting counsel was present, and the Accused was unable to cross-examine
witnesses. The High Court only allowed a further affidavit to be filed by
Accused. Due process in the United States requires that an accused be able to
confront and cross-examine witnesses. This is not allowed in New Zealand, as
the cases are usually conducted ‘on the papers,’ which include affidavits, unless
the tribunal directs otherwise. Whether the New Zealand standards are/were
applied is a significant question. The hearing is conducted by the use of
affidavits and the person charged is not entitled to cross-examine unless the

(b) to consider the granting of consent to employ a person
under section 248 of the Act:
(c) to consider any other matters involved in an inquiry or hearing,
other than the substantive hearing of charges or other proceedings:
(d) to consider any matters relating to the affairs or administration of
die Tribunal.

48

person charged is present, and the tribunal has asked for witnesses.69 Lawyers
and Conveyancers Act (Disciplinary Tribunal) Regulations 200$.
Section 24 theoretically does not allow witness evidence at hearing,
conflicting with the Section 25 which allows witness evidence. Hearings are
allowed, but witnesses are not allowed at substantive hearings unless requested
by the panel. A defendant has no right to subpoena or call witnesses.
In New Zealand, a lawyer is forbidden to speak with arid assist
witnesses, whereas in Oregon it is permitted. In addition, in Oregon
disciplinary matters, the judge is entitled to change the proceeding in order to
call witnesses, which was effected in the present case. Goldberg v Kelley 397
US 254,269 (1970). The Accused has always had evidentiary disputes with
the Law Society witnesses. Administrative decisions. Greene v McElroy 360
US 474,496-97 (1959). If a person is able to subpoena witnesses, then they
cannot complain that they were denied due process. Richardson v Perales 402
US 389 (1971) cf Mathews vEldridge 424 US 319,343-345 (1976).
The Accused could not obtain further evidence, but was allowed to file
further affidavits from himself. The prosecutor deliberately withheld

69 25 Evidence
(1)A11 evidence must be given by affidavit unless the Disciplinary
Tribunal directs otherwise.
(2)A11 witnesses must be available for cross-examination if required by
die Disciplinary Tribunal.

49
exculpatory evidence of substantial work done for a client in order to support
accusations of dishonesty by the Accused. This was a violation of procedural
due process.
The Accused could not obtain additional discovery, but was allowed to
supplement his evidence with affidavits. One client perjured himself in his
affidavit on material matters, and the prosecutor assisted affidavit preparation,
aid deliberately withheld substantial information that proved Accused had done
substantial work for that client, which was material evidence of his honesty and
integrity. This was a violation of procedural due process.
Prosecutorial misconduct with regard to the due process right of
confronting witnesses is important as a consideration. In his evidence presented,
the Accused always disagreed with the affidavit of client W, and the instructing
lawyer, Kevin Smith. From the submissions and the supporting client affidavit,
it is clear that the client peijured himself, and because the prosecutor was aware
that the Accused had done substantial work from evidence given to the
investigator, that the prosecutor assisted in that peijury and lied in the
proceedings. The peijury related to material evidence of whether the Accused
had done substantial work for the client. Through information given in the
investigation, these two parties were also aware that the Accused had lost all of
his emails with that client.

50
There is, in Oregon, no apparent sanction for disciplinary prosecution
misconduct, except that this court Could find a due process violation, that the
trials resulted in a failure of due process, criminal charges against die client and
the lawyer who assisted, and disciplinary action against the prosecutor for
misleading or lying to the tribunal.
The issue is whether, in Oregon, withholding important discovery by the
prosecution is governed by criminal or civil lawyer misconduct, die proceedings
being sui generis. In a criminal matter, withholding discovery and suborning
perjury of a witness is a violation of due process. ORS 162.065 Perjury. 1) A
person commits the crime of perjury if the person makes a false sworn
statement ora false unsworn declaration in regard to a material issue knowing it
to be false. 2) Perjury is a Class C Felony. The perjury of W was material, and
it was known to be false. The fact that the prosecutor helped ‘make’ the
affidavit of W could be considered perjury. The New Zealand definition of
perjury is defined in die Crimes Act 1961, sec. 10870 Perjury defined is much

70 (1) Perjury is an assertion as to a matter of diet, opinion, belief, or knowledge
made by a witness in a judicial proceeding as part of his or her evidence on oath,
whether the evidence is given in open court or by affidavit or otherwise, that
assertion being known to the witness to be false and being intended by him or her
to mislead the tribunal holding the proceeding.
(3) Every person is a witness within the meaning of this section who actually
gives evidence, whether he or she is competent to be a witness or not, and whether
his or her evidence is admissible or not.

51
broader than the Oregon definition and would appear on its face to include die
prosecution.
In addition, the prosecutor misled the Tribunal by withholding exculpatory
evidence, suborning the perjury of W, and referring to Accused as disingenuous
and dishonest
7. SEVENTH ASSIGNMENT OF ERROR
The Accused objected to one member of the tribunal panel, and his
objection was ignored, there is no formal procedure in New Zealand for such
objection.
(A) Preservation of Error. Amended Answer (BR 21), Affirmative Defense 7,
page 7. Hearing Memorandum (Board File Checklist 23) page 9, #6.
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of violations of substantive due process.
Bar Rules 3.5 (c), (e) and (f).
Argument
The Accused objected to one member of the disciplinary panel sitting on
the basis that he would not be an impartial judge. He was not directed or
required to file anything as a formal objection, and in fact this objection was
ignored. Because this objection to a member of the tribunal panel the Accused
was denied his due process and opportunity to be heard.

52
8. EIGHTH ASSIGNMENT OF ERROR
The Accused refused production of bank statements and the entirety of
client files to the investigator on the basis of client privacy and lawyer/client
privilege. The investigator obtained his personal bank account details from the
bank without a court order and stated that clients and lawyers have no rights in
an investigation. This was a violation of due process in that the investigator
obtained privileged and private records without a court order.
(A) Preservation of Error. Amended Answer (Board File Checklist 21), page 8,
Affirmative Defense #12. Hearing Memorandum (Board File Checklist
23), page 14-16.
(B) Standard of Review. De novo. The Accused has the burden of proving he
was denied due process because of violations of substantive due process.
Bar Rules 3.5 (c), (e) and (f).
Argument
Disciplinary investigators in New Zealand are apparently entitled to
demand and/or seize any bank account record, demand production of a source
of private and privileged information, such as client files and personal bank
account details, without notice or a hearing in violation of a person’s right to
privacy and over claims of lawyer/client privilege.
The disciplinary investigation, the evidence of Accused’s personal bank
account, and demands to see all bank records of payment into a personal

53

account, for the intended purpose of viewing client flies in their entirety was a
violation of Accused’s due process rights and an opportunity to be heard. It was
also a violation of the rights of his clients right to due process.
The investigator could have sought a court order for such documents. In
Oregon 2, the Bar performed the proper procedural exercise in moving the
Multnomah County Circuit Court for an order to produce all trust account
records, which was allowed, and with which the Accused complied.
The Accused’s privacy interests and those ofhis clients were ignored.
Details of his personal bank account were obtained without court order, for the
purpose of having access to all client files over his objection of privilege as
contained in Section 271 of the Act, which states “Legal professional privilege.
Nothing in this Part limits or affects legal professional privilege.” This claim
was made repeatedly by Accused and ignored repeatedly in all proceedings,
with the rejoinder “a claim of privilege is for the client to make,” removing the
purpose of having a lawyer, although every disciplinary regulation in Part 7
(disciplinary) of the Act is ruled by it.
There are privacy disclosure rules in the Act that limit the information
that a lawyer can share about non-complaining clients.71 Reading this subject to

718.2 When disclosure is required
A lawyer must disclose confidential information where—

54
Section 271 privilege, the Accused was acting within his rights and the rights of
his clients.
An investigator was appointed to investigate under Sections 144 -147 of
the Lawyers and Conveyancers Act 2006, and he had broad powers to
investigate. The Bar does not have such extensive powers to override claims of
privilege or go directly to obtain personal bank records without notice and
hearing, and a court order. Under the Lawyers and Conveyancers Act (Lawyers:
Conduct and Client Care) Rules 2008, there are requirements regarding
response to such inquiries with regard to client confidences,72 and when
disclosure is required.73 These regulations in Oregon would be found

(a) the information relates to the anticipated or proposed commission of a crime
that is punishable by imprisonment for 3 years or more; or
(b) the lawyer reasonably believes that disclosure is necessary to prevent a serious
risk to the health or safety of any person; or
(c) disclosure is required by rule 2.8: or
(d) disclosure is required by law, or by order of a court, or by virtue of the
lawyer’s duty to the court.
8.3 Where a lawyer discloses information under this rule, it must be only to an
appropriate person and only to the extent reasonably necessary for the required
purpose.
72 8.1 A lawyer’s duty of confidence commences from the time a person makes a
disclosure to the lawyer in relation to a proposed retainer (whether or not a
retainer eventuates). The duty of confidence continues indefinitely after the
person concerned has ceased to be the lawyer’s client.
73 8.2 A lawyer must disclose confidential information where—

55
unconstitutional as a violation of the due process rights of the lawyer and their
clients. The Tribunal described the Accused’s resistance to producing non­
complaining client records as "arrogance.’74 This description of the Accused’s
arguments was not repeated in the High Court. For this statement, and other
permutations in this case, the Accused made a counterclaim against the Law
Society for discrimination based on national origin.75 Americans have a
reputation for being "arrogant’ by New Zealanders that seems to have spawned
since his arrival in 1964.
The New Zealand discipline found that Accused’s claims of privacy and
privilege in response to the investigator’s demands did not give the Accused, as
lawyer and representative of clients, the right to claim privacy and privilege in
their behalf. The High Court judge and the Tribunal held that “Privilege is for

(a) the information relates to the anticipated or proposed commission of a
crime that is punishable by imprisonment for 3 years or more; or
(b) the lawyer reasonably believes that disclosure is necessary to prevent a
serious risk to the health or safety of any person; or
(c) disclosure is required by rule 2.8: or
(d) disclosure is required by law, or by order of a court, or by virtue of the
lawyer’s duty to the court
8.3 Where a lawyer discloses information under this rule, it must be only to an
appropriate person and only to die extent reasonably necessary for the required
purpose.
74 Ex 10, par. 34.
75 New Zealand Bill ofRights Act, 1990, sec. 19, based on The
Human Rights Act, 1993.

56
the client to claim.” This view of privacy and privilege is a violation of the
Accused’s clients due process and rightto be heard.
9. NINTH ASSIGNMENT OF ERROR
The Bar has brought ten charges of violation of disciplinary rules, of
which 9 were found violated, while there are two Oregon compatible charges
that were brought and succeeded in New Zealand. To place those New Zealand
charges within the Oregon context is inappropriate and a violation of due
process. BR 1.2 prohibits this Court and the Bar from going beyond the rules
for Oregon.
(A) Preservation of Error. Amended Answer (Board File Checklist 21), page 2
(d) - (f) as explanation and justification. Petition for Reciprocal
Discipline, Ex 45 page 6, Oregon Rule Violations. Trial Panel Opinion
(Board File Checklist 31) found 9 separate rule violations on page 13. BR
1.2 prohibits the Court and Bar from adopting New Zealand statutory
authority.
(B) Standard of Review. De novo. Bar Rule 3.5 (cX2) and Bar Rule 3.5(e).
Argument
Dealing with the ten charges made against Accused by the Oregon state
Bar, which grew from New Zealand charges based on two violations of the
disciplinary system is a stretch of art, or exercise of legal imagination. As stated

57
above, New Zealand is a foreign countiy jurisdiction possessing different rules
for Barrister, and Barrister said Solicitor:
a) RPC 1.4(a) Duly to keep client reasonably informed of a legal matter.
One is acting in a timely and competent manner;
b) Failure to repay client;
c) RPC 8.1(a) Failure to respond to DCO inquiries. Failure to cooperate
with an investigation is an Oregon allegation that requires deeper inquiry in the
Oregon context because the Accused has spent the last 17 years engaged in
disciplinary defence, in large part, because of his belief in a foundation of legal
representation, which is the protection of client information, which is called

‘privilege.’
Also, the New Zealand violations were based ‘on the balance of
probabilities/ which as stated above is a lighter evidentiary step than ‘clear and
convincing evidence.’ To dig into a plethora of Oregon charges of marked
dissimilarity is an unfair exercise of prosecutorial powers in that the prosecution
is asking of this tribunal that it ignore the Oregon and United States principles
of due process, which is notice and a fair hearing of the charges,

Of the

twelve charges made against the Accused, only six charges were proven and
four were dismissed by the prosecution at hearing (excessive fees). Of those six
charges, only two have a roughly equivalent rule or statute in Oregon. The
Amended Answer, in its responses to the charges of this tribunal contain

58

observations regarding response to the charges which are repeated here. Some
or all of the arguments presented could apply to any one charge. Arguments
regarding due process are a valid defense to any one charge.
a) RPC 1.4(a) Duty to keep client reasonably informed of a legal matter.
As stated in a), and for reasons given in the affirmative defenses. 1 failed to
inform the client that my Practising Certificate had lapsed for three weeks.
Also, see RPC 1.4(b).
b) RPC 8.1(a)(2) Failure to respond to DCO inquiries. The Accused
refused access to accounts and client files on the basis of client privilege. The
New Zealand judgment found that there was a failure to produce accounts, and
for reasons stated in the affirmative defenses, the Accused denies. Accused has
also argued above that his arguments were persuasive with regard to due
process.
The Oregon State Bar wishes to expand their rules to include the
disciplinary rules of a foreign country jurisdiction, which is an inappropriate
extension of its jurisdiction, and outside the ambit of these proceedings, except
where noted. To extend its j urisdiction into that of another country would in
effect allow it to bring charges in Oregon for factual issues that were uncharged
overseas and extant in that jurisdiction.

59

It is incumbent upon this Court to inquire into whether the due process of
New Zealand is comparable to Oregon and the United States, andan important
question that must be answered is also whether the New Zealand Law Society
followed due process in its pursuit of the Accused, As stated above, for many
different reasons, legally and factually, due process according to the standards
of Oregon and the United States was not followed. In addition, it is important to
inquire whether each due process violation was sufficient in itself to render the
New Zealand judgment incompetent, and/or whether the combination of
Accused' s alleged violations of due process against the Law Society render that
judgment incompetent.
As argued above, the two enumerated equivalent Oregon sanctions,
individually or collectively would not subject the Accused to disbarment in
Oregon, considering Accused’s past history of discipline. The Oregon Bar has
asked that the Accused be disbarred, and according to cited cases, these
violations are insufficient to establish a coherent pattern of offending, and the
combination cannot rise to the level of disbarment. Also, an Oregon finding of
lesser discipline would not be appropriate because not all of the current Oregon
charges were considered by New Zealand in making their decision to strike the
Accused off of the list of Barristers. To apply a lesser level of punishment
would be to retry the New Zealand matter, and try him for matters not included

*
»

60
in New Zealand, which is not appropriate, as the cases state that die charges and
die punishment should be concurrent with the foreign judgment
Dated this 6* day of September, 2019
*

■

Christopher Knute Skagen OSB# 911020

COMBINED CERTIFICATE OF COMPLIANCE WITH BRIEF
LENGTH AND TYPE SIZE REQUIREMENTS, AND CERTIFICATES
OF FILING AND SERVICE
(1) I certify that this brief complies with the word-count limitation in ORAP
5.05, which word count is 13,104 words.
(2) I certify that the size of the type in this brief is not smaller than 14 point for
both the text of the brief and footnotes.
I certify that I filed this brief with the Appellate Court Administrator on 6
September, 2019 (Oregon date). I certify that service of a copy of this brief will
be accomplished on the following participants in this case by email upon
SCoumover@osbar.org.

DATED:

f

^

*

Christopher Knute Skagen OSB #911020

k

